<html>
<title> - TRANSPORTATION AND HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2016</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]



 
TRANSPORTATION AND HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2016

                              ----------                              


                       WEDNESDAY, APRIL 22, 2015

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:35 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Susan M. Collins (chairman) 
presiding.
    Present: Senators Collins, Blunt, Boozman, Capito, Cassidy, 
Daines, Reed, Durbin, Feinstein, Coons, and Murphy.

                      DEPARTMENT OF TRANSPORTATION

                        Office of the Secretary

STATEMENT OF HON. ANTHONY FOXX, SECRETARY


             opening statement of senator susan m. collins


    Senator Collins. Good morning. The subcommittee will come 
to order. While we are waiting for Secretary Foxx to arrive, 
and through no--and right on cue he comes through the door. I 
want to explain that we moved up the time of the hearing by a 
half hour. And, Mr. Secretary, I feel your pain on the traffic 
because it has never taken me longer to get to work than it did 
today because of the protests and the street closures.
    But today we welcome Secretary Foxx about the 
administration's fiscal year 2016 budget request from the 
Department of Transportation (DOT). The administration is 
proposing $94 billion in mandatory and discretionary spending 
for the Department of Transportation in fiscal year 2016. 
Included in its budget is a proposed 6-year $478 billion 
surface transportation reauthorization paid for by a one-time 
14-percent tax on the repatriation of foreign earnings as well 
as by existing gas tax revenues.
    While I support a repatriation proposal and am completely 
open to using some of the resulting funds for our 
infrastructure, the President's budget is based on a 
reauthorization that is once again funded by a Band-Aid 
approach. It really fails to propose any real reforms necessary 
to bring about the long-term solvency of the highway and mass 
transit trust funds.
    It is perplexing to hear the administration talk about how 
important our Nation's infrastructure is, and indeed there was 
an event just yesterday to highlight the problems, and yet at 
the same time the administration continues to remain silent on 
trust fund reforms that must be put in place in order to 
address our crumbling roads and bridges now and in the future. 
Simply saying that we are happy to work with Congress is not an 
acceptable answer.
    This administration has had 6 years to provide Congress 
with specific proposals to reform the trust fund, yet year 
after year it has chosen to ignore what is an essential part of 
the surface transportation equation. This is a critical year 
for transportation both for the administration and for Congress 
as we must confront not only the reauthorization of the surface 
transportation programs expiring in May, but also a multiyear 
Federal Aviation Administration (FAA) authorization expiring at 
the end of the fiscal year. That being said, today our focus is 
on the fiscal year 2016 budgetary needs of the Department of 
Transportation based on current authorizations.
    I am very pleased to see that the administration continues 
to highlight and fund the important Transportation Investment 
Generating Economic Recovery (TIGER) program, but I am 
disappointed in the unrealistic proposal to shift funding to 
mandatory spending, a budget gimmick that simply will not 
happen in our appropriations bill. I have advocated strongly 
for the TIGER program since joining the Appropriations 
Committee in 2009, and I have seen firsthand how this terrific 
program supports economic growth and job creation nationally, 
regionally, and locally. It has been essential to many bridge, 
railroad, and port projects in my home State of Maine that 
otherwise would not have been undertaken when they needed to 
be.
    Moving on to FAA, our aviation system supports 11.8 million 
jobs here in the United States. With an average of 2 million 
passengers flying in our country each day and 58,000 tons of 
freight being transported daily by air, the Nation's aviation 
system depends upon a safe, efficient, and modern air traffic 
control system. The President's request includes nearly $16 
billion to support investments in keeping our aviation system 
the safest and most efficient airspace in the world.
    While I am pleased that the Essential Air Service program 
is fully funded in the request, I am again disappointed with 
omission of the Small Community Air Service Development 
Program, as well as the reduced funding for the Airports 
Improvement Program. Rural States, like Maine and other States 
represented by members on this subcommittee, benefit greatly 
from services that connect rural America with the larger 
transportation network. In many instances, air service would 
otherwise never have been established if it were not for the 
support of the Small Community Air Service Development Program.
    With regard to our rail system, I am concerned by the 
number of train accidents that have occurred over the past 3 
years. This issue has special resonance in my home because the 
horrific accident in Quebec, which killed 47 people and 
consumed much of a small community's downtown, happened only 10 
miles from the Maine border, and many of our first responders 
rushed to assist their Canadian counterparts. The Federal 
Railroad Administration's budget request highlights passenger 
railway, road safety, grade crossing, pedestrian safety, and 
the safe transportation of energy products as areas that may 
need additional resources. I will be looking closely at how we 
can best target Federal funds in order to reduce accidents and 
save lives.
    This subcommittee has worked hard to provide the Department 
of Transportation with resources to improve rail safety, but 
the results have not fully reflected those investments. For 
example, despite the increased resources we have provided for 
the safe transportation of crude oil, it is baffling to me that 
the Department and this administration have yet to finalize 
regulations to replace the DOT 111 tank cars and make other 
improvements. The Department has failed to even begin 
consideration of rules that would require comprehensive oil 
spill response plans for rail tank cars.
    I also remain concerned about the ability of the Department 
to hire the rail and pipeline inspectors previously funded in 
our bill. The subcommittee will hold the Department accountable 
for every dollar provided for these important safety issues.
    Another of my concerns is that some of the figures in the 
administration budget proposal are simply unrealistic. For 
example, the budget includes nearly $3.3 billion for Federal 
Transit Administration (FTA) capital investment grants, more 
than $1.1 billion above current levels. I recognize your 
interest in promoting public transit and other surface 
programs, and I acknowledge that your reauthorization would 
shift funding to mandatory. However, this subcommittee must 
operate in the real world, one in which this program must be 
funded with discretionary appropriations and where we continue 
to face severe fiscal challenges.
    With that, let me turn over the podium to my colleague, 
Senator Reed, and say once again what a great pleasure it is to 
have him as our ranking member. Senator Reed.


                     statement of senator jack reed


    Senator Reed. Thank you very much, Chairman Collins, for 
your excellent testimony and statement, rather, and for your 
leadership. And welcome, Secretary Foxx. This is a lesson today 
on gridlock and how we need to do more for the roads in D.C. 
and everywhere, so you are Exhibit 1. Thank you very much.
    We really do appreciate your leadership and look forward to 
discussing this budget request with you. And it includes, as 
indicated by Senator Collins, a robust long-term 
reauthorization proposal for surface transportation programs. 
But before I get any further, let me thank you for coming up to 
Rhode Island and visiting and seeing firsthand some of our 
transportation issues at T.F. Green Airport, at Quonset Point, 
our car shipment facility. Thank you very, very much.
    As you recognized that day, our airport is a catalyst for 
economic growth, and we are still lagging the country in terms 
of employment. We are tied for 10th highest unemployment rate 
improvement. We used to be vying for one, which, trust me, you 
do not want to be in that kind of competition, but we can do 
more. And thank you again for coming up to Rhode Island. I 
really appreciate it.
    You had a chance to look at our infrastructure up there, 
and it is similar to many places around the country. We need a 
functioning airport. We have the Port of Davisville. It has 
been very successful. Last year, it had another record year: 
178,000 automobiles were imported through the port. I must say 
and concur with Senator Collins, TIGER grants helped a lot, and 
that is another graphic example of how those funds can be used 
very adroitly and flexibly by local authorities to create jobs, 
which is what we really want to do.
    We also understand, too, that the future is going to mean 
more port calls because of a new Panama Canal, because of the 
Arctic Ocean becoming a commercial transit area, which it had 
never been in the past. And so, what we are doing today is 
going to help us in the future dramatically.
    We have, as you saw in Rhode Island, significant needs. One 
out of every four bridges needs repair in the State of Rhode 
Island. They cannot handle today's traffic. It is just going to 
get worse. That is one out of four. Twenty percent of our 
bridges are in this situation, and it will be 40 percent by 
2025. And if we do not fund them, it just gets worse. It does 
not stay the same. It will take $80 million a year just for 
Rhode Island to reverse this trend.
    Amtrak, which is another key component of our 
transportation system, has a $7 billion state of good repair 
backlog for the northeast alone, $7 billion. That is a big 
number, and it affects Maine also, and Massachusetts, and all 
the way up and down the coast. The FAA has a $5 billion backlog 
of maintenance needs, which will put our air traffic control 
system at risk of outages or delays. We are just talking about 
the things we have got to fix. We are not talking about the 
things we want to build. That is what is distressing about this 
hearing and, frankly, your position, Mr. Secretary.
    You have proposed a plan that I think will begin to grapple 
with these issues, and I commend you for that. If we could 
reauthorize appropriately and reorganize the tax, and 
authorizing committee responsibility is to come up with 
revenues to pass a meaningful bill, we could begin this 
process. So I applaud you for laying it on the table for us and 
asking for those funds. But I am afraid that, you know, we are 
going to be stuck here. We are not going to make some tough 
choices about the revenues in order to invest in our future, 
and there is no better investment than infrastructure. Every 
American will tell you that. Everyone on this subcommittee will 
tell you that. The real key is find the revenues, and that is 
what we have to do.
    We also have to recognize that State and local governments 
have been struggling and will struggle. If we cannot give them 
the certainty of a 4- or 5-year plan of committed Federal 
funding at a reasonable and, we hope, robust level, they will 
be on their own, and frankly they will perform even worse 
because they do not have the certainty and the resources.
    And so, I look forward to being supportive of what you are 
doing. I commend you. As I said, you have in this budget a 
$1.25 billion request for the TIGER program. It works. We saw 
it at Quonset Point, both you and I; $2.4 billion for Amtrak to 
stop that process of repairing their rights-of-way and their 
facilities; $908 million for the National Highway Traffic 
Safety Administration, which is necessary because we have seen 
recently a lot of situations where vehicles are on the road and 
should have been recalled, and the companies were not held to 
the level of accountability that a robust traffic safety 
administration should and must do.
    There's $243 for the Federal Railroad Administration, which 
will support 84 additional rail safety inspectors. Again, the 
chairman has raised the issue of are we effectively supervising 
both passenger and freight rail in the United States. We have 
got to do that. $15.8 billion for the FAA, which not only funds 
our air traffic controllers, who we take for granted, each and 
every one of us when we get on our planes, like Friday or maybe 
tomorrow. And also $956 million for NextGen, which is 
important. These programs all rely on resources that come 
through this bill, and we have to ensure that they are there.
    One point I want to conclude about is that we have a 
collective responsibility, I think, to somehow avoid 
sequestration. It will be detrimental not only in the monetary 
impacts on the budget, but again the mindless reduction of 
accounts without any opportunity for a Secretary to say, well, 
this makes sense and this does not make sense. And also it will 
further undermine the predictability and certainty that State 
governments and private companies must have in order to make 
investments themselves.
    We were able through the great work of Senator Murray and 
Congressman Ryan to delay it. We need a repetition of that work 
in the days ahead so that we can go forward. And with that, 
thank you.
    Senator Collins. Thank you very much, Senator Reed. I want 
to acknowledge the presence of several of our members, Senator 
Cassidy, Senator Daines, Senator Capito. I know how to say it. 
Capito. I cannot believe I said it wrong when I know it. And 
Senator Blunt, who has joined us today, and I am sure other 
members will as well. We did change the time of this hearing, 
and I very much appreciate the Secretary accommodating the 
schedule in light of the votes that we have, so please proceed 
with your statement.


                 summary statement of hon. anthony foxx


    Secretary Foxx. Madam Chairman, Ranking Member Reed, and 
all of the members of the subcommittee, I want to thank you for 
having me here today. And I want to say a particular thanks to 
Madam Chairman especially for being flexible in scheduling the 
date of this hearing. I really very much appreciate that given 
some of the challenges I have had recently with my knee.
    I will jump right in. Last month we sent Congress a new and 
improved GROW AMERICA Act. It is a long-term bill, and it would 
provide $478 billion of funding over 6 years. Having a 6-year 
bill is very important because it will give communities a 
stable, predictable amount of funding so they can plan for the 
long term, as has been mentioned.
    That said, I know this subcommittee is very focused on this 
upcoming fiscal year, so let me tell you what this bill means 
for fiscal year 2016. Of the $478 billion, approximately $95 
billion accounts for our budget request in fiscal year 2016. 
Within the fiscal year 2016 request, we would invest $7.5 
billion to clear the backlog of deficient bridges and highways 
that need safety repairs. There is $1 billion for a new freight 
program and over a billion dollar increase for capital 
investment grants, which would help build projects that better 
connect folks to jobs, schools, and doctors.
    At DOT, we recognize that sequestration will take effect 
next January absent congressional action. Sequestration would 
have a devastating impact on our transportation safety efforts, 
threatening the resources needed to conduct safety inspections 
and enforce critical safety rules.
    What GROW AMERICA does is lay down a marker. It shows us 
the funding level necessary to actually improve the condition 
of our transportation system, and the GROW AMERICAN Act is 
fully paid for. It is part of a larger administration budget 
that avoids sequestration, keeps our safety inspectors and air 
traffic controllers on the job, makes investments in our Nation 
that we need to support for a growing population and a growing 
economy. I believe we can accomplish this on a bipartisan 
basis, and there is a long history of precedent in this country 
of having done so.
    I want to specifically thank you, Chairman Collins, for the 
work that you did last year and even before that on the issue 
of safely transporting energy. It is an important issue, one 
that all of us care about. And I also want this subcommittee to 
know, both Democratic and Republican members, that your history 
of working together to support critical infrastructure 
investments, like our TIGER grant and our Capital Investment 
Grant programs, matter a great deal to communities all across 
America, and it is appreciated. And, Ranking Member Reed, I 
want to thank you for being such a great voice for the need to 
fix the shortfall in the Highway Trust Fund and for long-term 
stability in the funding.
    Before I take your questions, let me close by saying this. 
We are speaking today about fiscal year 2016, but as the 
chairman has also acknowledged, we have to recognize that we 
have a more immediate issue with the Highway Trust Fund on May 
31. Next month the current authorization for the Highway Trust 
Fund will expire, and when States come to us looking for money, 
we will not be able to guarantee that it will be there. Plans 
will be shelved, new jobs will not be created, and current ones 
will be at risk. We have already seen about six States pull 
back close to $2 billion in projects because of Federal funding 
uncertainty.
    I know there has been a lot of talk about passing a couple 
of months of funding to get by this latest highway cliff. As 
you know, the definition of insanity is doing the same thing 
over and over again and expecting a different result. Frankly, 
having been at the local level, I can tell you that communities 
are stuck in the planning process because of this uncertainty. 
A Band-Aid on our transportation system is not what we need.
    Last summer, Congress passed patch funding for 10 months. 
Three months into that 10-month patch, Tennessee announced they 
were mothballing projects. As I said before, five more States 
have joined Tennessee since then, canceling about $2 billion 
worth of projects. Maybe if America was not growing and it did 
not need to prepare for a larger population and a larger 
economy, perhaps this would not be so bad. But that is far from 
the case. America will be home to 70 million more people by 
2045. We will have to move 45 percent more freight. Never 
before has the demand on our system been so high and our 
response in terms of investment been so low.
    Madam Chair, if we have to go through the struggle of 
passing a funding bill, let us do it the right way. Let us do 
something big. I am ready to work with you and all members of 
Congress to get something done, and I look forward to your 
questions.
    [The statement follows:]
               Prepared Statement of Hon. Anthony R. Foxx
    Chairman Collins, Ranking Member Reed and Members of the 
Subcommittee, thank you for the opportunity to appear before you to 
talk about the President's $94.7 billion fiscal year 2016 Budget 
Request for our transportation programs and the importance of these 
programs to our economy and job creation.
    However, before I begin, I'd like to thank the Chairman and this 
Subcommittee for the important role it has played in helping the 
Department pursue its safety mission. Specifically, in fiscal year 
2015, Chairman Collins and Senator Murray demonstrated strong 
leadership surrounding the safe transport of energy products by making 
targeted investments for mitigation, prevention and emergency response 
activities. In addition, this Subcommittee has traditionally been a 
strong supporter of infrastructure investments, fighting for the TIGER 
grant and Capital Investment Grant programs.
    Transportation is a critical area for our Nation, and it is 
critically important that we work together again to enact a robust 
budget in fiscal year 2016 that makes much-needed investments in our 
Nation's infrastructure system.
    Over the last year, I traveled across the country to engage with 
local officials, business leaders and everyday people about the state 
of our transportation system. In the Spring of last year, I spent a 
week traveling by bus from Ohio to Texas, stopping in cities and one-
stoplight towns along the way. Just this past February I took a similar 
trip, starting in Florida and stopping in cities on our way back to 
Washington D.C. What we saw on all of these trips--and what we heard 
from people around the country and in State Departments of 
Transportation--demonstrated to me that people outside the Beltway 
desperately want us to find a way to work together in Washington and 
fix the serious transportation problems we have in America.
    Transportation is a critical engine of the Nation's economy. 
Investments in our transportation network over the country's history 
have been instrumental in developing our Nation into the world's 
largest economy and most mobile society. Over time, however, our level 
of investment as a percentage of the gross domestic product has dropped 
significantly, as it fails to keep pace with our growing economy and 
population. The costs of inadequate infrastructure investment are 
exhibited all around us. Americans spend 5.5 billion hours in traffic 
each year, costing families more than $120 billion in extra fuel and 
lost time. American businesses pay $27 billion a year in extra freight 
transportation costs, increasing shipping delays and raising prices on 
everyday products. Also, 65 percent of our Nation's roads are in less 
than good condition; one in four bridges require significant repair or 
can't handle current traffic demands and 45 percent of Americans lack 
access to basic transit services.
    Underinvestment impacts safety, too. There were over 32,000 highway 
traffic fatalities in 2013. Such fatalities occur disproportionately in 
rural America, in part because of inadequate road conditions. For a 
Nation that is expected to have 70 million more citizens by 2050 and an 
increase in the volume of freight traveling on our highways, railroads, 
waterways and aviation systems, the current investments we put into our 
transportation system will not be sufficient to address these competing 
but urgent needs.
    Worse still, in recent years, the transportation enterprise--and 
the millions of jobs that come with it--has been thrown into a 
continuing period of uncertainty due to the numerous short-term 
spending ``patches'' that we use to fund our Federal transportation 
programs. The inability to pass a long- term surface transportation 
funding bill creates uncertainty for local project sponsors and 
inhibits their ability to plan effectively. Since 2009, our surface 
transportation programs have been operating under short term extensions 
11 times, including a two day lapse in March 2010. In addition there 
have been 21 continuing resolutions, forcing all our transportation 
programs to operate under a CR for 39 of the last 78 months, not to 
mention a 2 = week stretch where the government was shutdown. 
Governors, mayors, city and county councils, and tribal leaders can't 
plan because they don't know whether the Federal program and payments 
will be suspended--again--in just a couple months' time.
    Increasingly, we are seeing State and local officials abandon 
planning on the more ambitious and expensive projects that will move 
our economy forward. Instead, these officials are targeting available 
dollars on smaller preventative maintenance and repaving projects that, 
while important for maintaining infrastructure availability in the near 
term, do not address the longer term needs for additional investment in 
transportation infrastructure capacity and quality. State and local 
officials are rightly concerned about whether Congress will allow 
spending authority from the Highway Trust Fund to expire at the end of 
May--precisely when the construction season should be heading into full 
swing. Just recently, the Commissioner of Tennessee's DOT announced he 
was delaying $400 million in highway projects because of the funding 
uncertainty in Washington, saying ``this piecemeal funding of projects 
and programs is having a significant impact on how and when State DOTs 
and municipal planning organizations deliver much needed investment in 
our transportation networks.'' Similarly, the Director of the Arkansas 
State Highway and Transportation Department decided to delay $100 
million in highway construction projects and Delaware recently put $600 
million in projects on hold because of uncertainty over the Highway 
Trust Fund. We may not see it directly, but failure to act on a long-
term bill is actually making investments in critical infrastructure 
more expensive--and more difficult, for all of our State DOTs.
    Inadequate and inconsistent funding is not our only problem. The 
Federal programs that govern how we deliver projects must be 
modernized. Too often, projects undergo unnecessarily lengthy reviews, 
and we need to be able to make the types of reforms that will expedite 
high priority projects and identify best practices to guide future 
efforts without undermining bedrock environmental and labor laws or 
public engagement. We also need to reward States and local communities 
that coordinate their decisionmaking with their neighbors and 
prioritize funding for freight projects that will benefit the Nation's 
economy.
    For these reasons, I hope that the Administration, this Committee, 
and the many other Committees in Congress who must be heard from, will 
agree that we must bring this era of short-term patches to a close.
    Last year as part of the Budget, the Administration submitted to 
Congress the Generating Renewal, Opportunity, and Work with Accelerated 
Mobility, Efficiency, and Rebuilding of Infrastructure and Communities 
throughout America--or GROW AMERICA--Act. This proposal was a 
comprehensive 4-year, $302 billion reauthorization proposal which 
called for substantial funding increases as well as dozens of critical 
policy reforms. What America received instead was yet another short-
term extension, with status-quo policies and flat funding. The 
President's 2016 Budget adds additional certainty by requesting a 
revamped 6-year, $478 billion GROW AMERICA Act that includes essential 
program improvements so we can improve safety, support critical 
infrastructure projects and create jobs while improving America's 
roads, bridges, transit systems and railways in our cities, fast-
growing metropolitan areas, small towns and rural communities across 
the country.
    Our proposal is fully paid for through an important element of the 
President's plan for a reformed business tax system that will encourage 
firms to create U.S. jobs instead of shifting jobs and profits 
overseas. Specifically, the Administration's proposal would impose a 
one-time 14 percent transition tax on the untaxed foreign earnings that 
U.S. companies have accumulated overseas. Unlike a voluntary 
repatriation holiday, which the President opposes and which would lose 
revenue, this transition tax would mean that companies have to pay U.S. 
tax right now on the $2 trillion they already have overseas, rather 
than being able to delay paying any U.S. tax indefinitely. And it would 
be coupled with reforms to eliminate the incentive to shift profits and 
jobs to tax havens in the future. Revenue from the transition tax--
along with projected highway excise tax receipts--will fully pay for 
the GROW AMERICA Act.
    Our 6-year proposal will provide the funding growth and long-term 
certainty so desperately needed by our States and local communities so 
they can make real progress on addressing our infrastructure deficit. 
The GROW AMERICA Act will also build ladders of opportunity to help 
Americans get to the middle class by providing transportation options 
that are more affordable and reliable and by improving their quality of 
life through greater access to education and new job opportunities. 
Most importantly, the GROW AMERICA Act will put into place a program 
structure and funding stream focused on the transportation needs of the 
future.
    Reauthorization of the Federal Aviation Administration must also 
take place before heading into fiscal year 2016. The Administration is 
developing its goals and objectives to improve the safety and 
efficiency of the national airspace system. The FAA is currently in the 
middle of a multi-year, multi-billion dollar modernization known as 
NextGen. This overhaul will take advantage of satellite based 
navigation technology to create a safer, more efficient system.
    As part of our effort to focus on the future of transportation, on 
February 2nd I released the Department's 30-year vision for the future 
of transportation in America--entitled ``Beyond Traffic.'' It is 
intended to start a meaningful national dialogue on the choices we must 
make as a nation if we are to avoid a painfully congested future where 
our transportation system serves as a crippling drag on our economy 
rather than a catalyst for growth. We are currently receiving ideas 
from the public and I would encourage all Committee members to review 
the document and participate in this dialogue. Through a data-driven 
approach, we draw important observations related to impacts coming our 
way and ask critical questions: How will we move millions more people? 
How will we move goods? How will we adapt to the impacts of increased 
extreme weather events? How will innovation help us to meet many of 
these challenges? One thing our report asks is how we might better 
align decisions and dollars? The answer to this question--largely in 
your hands-- will play an essential role in helping us get maximum 
capacity, efficiency and safety out of our existing infrastructure as 
well as all the new roadways and railways we are going to need to build 
to accommodate massive growth equivalent to adding the populations of 
Florida, Texas and New York by 2045.
    The Fiscal Year 2016 Budget Request and the GROW AMERICA Act aim to 
tackle this challenge head on by advancing my key priorities of 
protecting the safety of the traveling public, closing the Nation's 
infrastructure deficit, and modernizing the U.S. transportation system 
through technology and process innovation.
    Protecting the Safety of the Traveling Public.--In 2013, vehicle 
crashes killed approximately 32,000 Americans and injured more than 2.3 
million, making motor vehicle crashes one of the leading causes of 
death in the U.S. Every life is precious and one life lost on our roads 
is one too many. federally inspired safety reforms, such as seat belt 
and drunk-driving laws, have saved thousands of American lives and 
avoided billions in property losses. The GROW AMERICA Act addresses 
safety vulnerabilities across our transportation network, both through 
increased investment in safety programs, and through policy changes 
that strengthen oversight and increase accountability. The fiscal year 
2016 Budget Request and GROW AMERICA include:
  --Focusing $29 billion over 6 years, including $7.5 billion in fiscal 
        year 2016, on the reconstruction, restoration, rehabilitation, 
        preservation or safety improvement of existing highway assets. 
        The Critical Immediate Safety Investments Program (CISIP) will 
        reduce the number of structurally deficient Interstate Highway 
        System bridges, target safety investments and support a state 
        of good repair on the National Highway System.
  --Improving safety on railroads. The proposal will assist commuter 
        railroads in implementing positive train control (PTC) by 
        providing $3 billion over 6 years, including $825 million in 
        fiscal year 2016. The proposal will also help reduce the impact 
        and improve the safety of rail transportation in communities 
        using $250 million in fiscal year 2016 for rail line relocation 
        projects, highway-rail grade crossing enhancements and 
        investments in short line railroad infrastructure.
  --Increasing the National Highway Traffic Safety Administration's 
        capabilities by providing $6 billion over 6 years, including 
        $908 million in fiscal year 2016. This will ensure that 
        vehicles on the road meet the highest safety standards and that 
        the agency has the personnel and tools to identify vehicle 
        defects early and respond quickly. This includes a request in 
        fiscal year 2016 to hire 57 new people within the Office of 
        Defects Investigation to meet the challenge of rapidly evolving 
        technology within the average car.
  --Continuing focus on the Safe Transport of Energy Products. The 
        fiscal year 2016 Budget makes approximately $34 million in 
        targeted investments across the Department to continue and 
        further our focus on the safe movement of energy products 
        throughout our transportation system by supporting enhanced 
        inspection levels, investigative efforts, research and data 
        analysis and testing in the highest risk areas.
    Closing the Nation's Infrastructure Deficit.--The fiscal year 2016 
Budget Request and the GROW AMERICA Act propose important policy 
improvements and make critical investments to close this Nation's 
infrastructure deficit, including:
  --Strengthening policies and providing $317 billion over 6 years, 
        including $51.3 billion in fiscal year 2016, to invest in our 
        Nation's highway system: The proposal will increase the amount 
        of highway funds by an average of nearly 29 percent above 
        fiscal year 2015, emphasizing ``Fix-it-First'' policies and 
        reforms that prioritize investments for much needed repairs and 
        improvements to the safety of our roads, with particular 
        attention to investments in rural and tribal areas.
  --A dedicated grant program for projects that benefit the Nation's 
        commerce: The U.S. transportation system moves more than 52 
        million tons of freight worth nearly $46 billion each day, or 
        almost 40 tons of freight per person per year, and freight 
        tonnage is expected to increase 62 percent by 2040. The Budget 
        proposes $18 billion over 6 years, including $1 billion in 
        fiscal year 2016, for a new multi-modal freight program that 
        will relieve specific bottlenecks in the system, strengthen 
        America's exports and trade and give freight stakeholders a 
        meaningful seat at the table in selecting funded projects. The 
        new initiative encourages better coordination of planning among 
        the Federal Government, States, ports and local communities to 
        improve decisionmaking.
  --Strengthening policies and providing nearly $115 billion over 6 
        years, including $18.4 billion in fiscal year 2016, for transit 
        systems to expand transportation options: The proposal 
        increases average transit spending by nearly 76 percent above 
        fiscal year 2015 enacted levels, which will enable the 
        expansion of new projects that improve connectivity, such as 
        light rail, street cars and bus rapid transit, in suburbs, 
        fast-growing cities, small towns and rural communities, while 
        still maintaining existing transit systems. These transit 
        investments will play a critical role in supporting communities 
        around the country--for example, providing transportation 
        options in rural communities that have growing numbers of 
        seniors.
  --Strengthening policies and providing nearly $29 billion over 6 
        years, including $5 billion in fiscal year 2016, for the 
        Nation's intercity passenger and freight rail network: 
        Highways, transit, aviation, inland waterways, ports and 
        harbors all have dedicated trust funds. Rail does not have a 
        dedicated source of Federal revenue. The GROW AMERICA Act will 
        provide predictable, dedicated funding for rail, which will 
        provide States, localities and railroads with the certainty 
        they need to effectively plan and implement their projects--
        primarily to improve and expand passenger rail service. This 
        funding will allow our Nation to better address the growing 
        backlog of state of good repair needs on our rail system and 
        deliver the improvements required to accommodate growing 
        passenger and freight rail demand.
  --Expanding and strengthening of DOT credit programs to spur 
        innovative financing and increase overall infrastructure 
        investment: The GROW AMERICA Act expands financing options 
        under the Transportation Infrastructure Finance and Innovation 
        Act (TIFIA), which leverages Federal dollars by facilitating 
        private participation in transportation projects and 
        encouraging innovative financing mechanisms that help advance 
        projects more quickly. The Act will provide $6 billion over 6 
        years, which could result in $60 billion of direct loans. In 
        addition, the Act increases the accessibility of the Railroad 
        Rehabilitation and Improvement Financing Program by reducing 
        the cost of obtaining a loan for short line railroads and 
        increases the availability of Private Activity Bonds by raising 
        the existing $15 billion cap to $19 billion.
  --Strengthening domestic manufacturing: The GROW AMERICA Act will 
        strengthen existing ``Buy America'' requirements to ensure that 
        taxpayer investments for public transportation translate into 
        American jobs and opportunities for innovation. The Act allows 
        for an orderly phase in by transit suppliers by raising the 
        current 60 percent threshold to 100 percent over multiple years 
        to bring the ``Buy America'' requirements for transit in line 
        with the requirements in other modes.
  --Expanding access to markets and strengthening rural communities: 
        America's rural communities are the critical linkage in the 
        Nation's multimodal transportation network. From manufacturing 
        to farming, freight logistics to energy production and more, 
        rural America is home to many of the Nation's most critical 
        infrastructure assets including 444,000 bridges, 2.98 million 
        miles of roadways, 30,500 miles of interstate highways. 
        Specifically, the GROW AMERICA Act will encourage safety on 
        high-risk rural corridors, provide workforce development in 
        rural areas, make badly needed freight investments, increase 
        deployment of broadband use in rural areas and improve the 
        Federal Lands Transportation Program to achieve a strategic, 
        high-use transportation system on roads that directly access 
        Federal lands.
    Modernizing the U.S. Transportation System Through Technology and 
Process Innovation.--Technological changes and innovation have the 
potential to transform vehicles and infrastructure, logistics, and 
delivery of transportation services to promote efficiency and safety. 
Likewise, process innovation has the potential to improve the way that 
the government operates in the service of the American people. To that 
end, the fiscal year 2016 Budget Request and the GROW AMERICA Act are 
focused on:
  --Encouraging innovative solutions through competition: The Act more 
        than doubles the size of the highly successful Transportation 
        Investment Generating Economic Recovery (TIGER) competitive 
        grant program and cements it in authorizing statute, which will 
        encourage States and localities to bring more innovative, 
        cross-modal proposals to the table and give the Department more 
        resources to see that the most meritorious projects ultimately 
        are constructed. In addition, the Act would dedicate $6 billion 
        over 6 years, including $1 billion in fiscal year 2016, to 
        establishing the Fixing and Accelerating Surface Transportation 
        (FAST) program, designed to create incentives for State and 
        local partners to adopt critical reforms in a variety of areas, 
        including safety and peak traffic demand management.
  --Improving project delivery and the Federal permitting process: The 
        GROW AMERICA Act will help projects break ground faster by 
        expanding on successful Administration efforts to modernize the 
        permitting process while protecting communities and the 
        environment. The Budget requests $4 million in fiscal year 2016 
        to create an Interagency Infrastructure Permitting Improvement 
        Center that will institutionalize capacity within DOT to 
        improve interagency coordination and implement best practices, 
        such as advancing concurrent, rather than sequential, project 
        review, and using the online permitting dashboard to improve 
        transparency and coordination and track project schedules. The 
        Act will also increase flexibility for recipients to use 
        Federal transportation funds to support environmental reviews, 
        help to integrate overlapping requirements and eliminate 
        unnecessary duplication.
  --Accelerating NextGen: The fiscal year 2016 Budget Request includes 
        $956 million to advance the modernization of our air traffic 
        control system which will make aviation safer and more 
        efficient. Although NextGen is a long-term and complex 
        undertaking, we are already witnessing benefits from it--giving 
        pilots and controllers more flexibility at certain airports, 
        reducing wake-based separation standards at others and reducing 
        congestion in some busy metro areas. This budget will support 
        stakeholder identified priorities as well as invest in core FAA 
        information technology infrastructure necessary to deliver 
        additional benefits.
    At the end of 2013, policymakers came together on a bipartisan 
basis to partially reverse sequestration and to pay for higher 
discretionary funding levels with long-term reforms. The President's 
Budget builds on this progress by reversing sequestration, paid for 
with a balanced mix of commonsense spending cuts and tax loophole 
closures, while also proposing additional deficit reduction that would 
put debt on a downward path as a share of the economy.
    Thank you and I look forward to your questions.

                   SAFE TRANSPORT OF ENERGY PRODUCTS

    Senator Collins. Thank you very much for your testimony. I 
mentioned in my opening statement the tragic incident in Lac-
Megantic in Canada, very close to the Maine border, which 
prompted the administration and the Department to look at the 
design of the tank cars that are carrying crude oil. Given the 
recent uptick in crude by rail accidents, most recently in West 
Virginia and Illinois, I am simply astonished that we are once 
again waiting for the Office of Management and Budget (OMB) to 
sign off on these important regulations. I am also concerned 
that the Department has failed to publish a draft regulation to 
require a comprehensive oil spill response plan from the 
railroads.
    We have given substantial increases in resources for more 
inspectors, for example. Could you update us and explain why 
more progress has not been made in this truly critical area?
    Secretary Foxx. Well, first of all, Madam Chairman, your 
concerns are our concerns, and we certainly take this issue 
very seriously. I want to describe a few steps that we have 
taken to answer your question.
    First of all, on the overall issue of crude by rail, the 
Department very early on in this process took 24 steps along 
with industry to basically provide a bridge between Lac-
Megantic and getting a comprehensive rule in place. Just last 
week we announced several additional steps that we have taken 
as a result, and the work on the crude oil rule continues.
    I will point out that one of the challenges of doing this 
rule is that we are talking not only about retrospective risk, 
but the fact that this industry is continuing to grow, and so 
there is a lot of focus also on prospective risk. As a result, 
we are working very, very closely with OMB to get a 
comprehensive rule that not only addresses tank cars, but 
addresses things like speed and other areas that will help 
impact mitigation, prevention, and emergency response.
    Second, on the issue of the oil spill response plans, I 
want to point out that we did issue an advance notice of 
proposed rulemaking on August 1, 2014, that was designed to put 
questions out to stakeholders that we thought were very 
important in ultimately addressing a final rule. Questions such 
as the volume of oil and the number of tank cars in a train 
that should trigger such an oil spill response plan. We have 
received comments on that. I expect that we will have an oil 
spill response plan notice of proposed rulemaking put out his 
summer, probably as soon as June. And so, I look forward to 
making progress there.
    And then finally on the issue of inspectors, we appreciate 
the work of the Appropriations Committee providing the 
resources to hire inspectors. I will only point out that we are 
competing with industry to hire the very best talent we can in 
that space. And I promise you we will push hard to get the 
numbers up on those inspectors by the end of the fiscal year.

                       PASSENGER VAN REGULATIONS

    Senator Collins. Thank you. That is absolutely critical 
because the condition of the rail tracks is also an issue. Mr. 
Secretary, I am concerned about a recent attempt to change 
DOT's regulation of 9- to 15-percent passenger vans that are 
used for summer camp transportation. I believe you have 
experience in having a child go to summer camp in the great 
State of Maine, as do many Americans. Without a change in law, 
without going through any regulatory process, one regional 
office within the Federal Motor Carrier Safety Administration 
(FMCSA) is treating these small passenger vans as if they were 
Greyhound buses or Trailways buses providing year-round 
commercial services.
    For example, when camps in Maine transport children from 
the airport in Manchester, New Hampshire, across State lines, 
they are in no way offering transportation services to the 
general public. This is simply an incidental cost to the 
overall summer camp experience. Yet the agency's new 
interpretation in just the region that affects the State of 
Maine requires camps to offer continuous an adequate services, 
post prices, schedules, and other commercial-like services to 
the public or lose their operating authority. This makes no 
sense at all for a van that is being used in the summer months 
to pick up kids at the airport. Even a camper who flies 
directly into Maine and is driven in a passenger van within the 
State itself can be subject to these interstate regulations 
because the combined summer camp package includes airfare from 
another State.
    Now, I want to be clear. I am not advocating that summer 
camps be relieved from obtaining the necessary liability 
insurance to cover safety matters. But it makes no sense to 
treat them as if they are commercial entities that are solely 
in the business of providing transportation services year 
round.
    The recent omnibus or cromnibus bill that we passed 
required DOT to include a notice and comment rulemaking so that 
there could be some public input on changing this guidance. Can 
you assure me that DOT will comply with public notice and 
comment requirements and take a hard look at whether this 
really makes sense? This strikes me as Government overkill at 
its worst.
    Secretary Foxx. I can absolutely assure you that we will 
take seriously the notice and comment period. I will also do 
you one better. Because of the unique circumstances of Maine 
and the camping industry there, I will also send a team to 
solicit comments directly from stakeholders in Maine who are 
dealing with this unique issue that you have raised.
    Senator Collins. Thank you. That would be terrific. Senator 
Reed.

                             CYBERSECURITY

    Senator Reed. Well, thank you very much, Madam Chair, for 
your questions and, again, for your leadership here. And let me 
begin with a topic that the chairwoman is very much familiar, 
and that is cybersecurity, particularly the FAA. I had the 
privilege really of watching the senator work as a member of 
the Intelligence Committee. She did a superb job in crafting 
the intelligence bill that is pending, and no one knows more 
and has been more thoughtful about the issue than Senator 
Collins.
    But I understand that within the FAA there is a huge need 
to protect the system from cyber incidents and intrusions, but 
that there is an organization, the air traffic organization, 
that basically has to borrow funding in order to help promote 
cybersecurity from other agencies and borrow personnel, that 
there are different experts within FAA that disagree as to what 
is the best approach and how to deal with it. It is a critical 
issue, and it seems not only is it a resource issue, but it is 
an organizational issue.
    So let me ask you, Mr. Secretary. What are you and Director 
Huerta, who I have great admiration for, doing to try to get 
this done. You know, we are late. This is not one of these 
things that we are going to see problems on the road. We are 
already years late in dealing with it.
    Secretary Foxx. Thank you for the question. It is also an 
issue of enormous importance, and we recognize that at DOT and 
at the FAA. Specifically, the FAA is working to address issues 
and recommendation that the Government Accountability Office 
(GAO) has also raised as it relates to cybersecurity and the 
FAA. We have already established a number of technical findings 
that are focused on remediating some of those concerns.
    In addition, the FAA has established a new Executive 
Cybersecurity Steering Committee that will focus on these 
issues across the Department and across the agency. One of its 
major responsibilities will be to coordinate the implementation 
of the GAO recommendations. The subcommittee will also take a 
risk-based approach in addressing the larger set of issues 
associated with cybersecurity.
    In addition to that, this is an area where we are also 
joined at the hip with our other agency partners, and so we are 
working closely with the Department of Homeland Security, and 
the U.S. Army Cyber Command to coordinate our efforts to 
protect the integrity of our airspace.
    Senator Reed. Is there some one individual that is in 
charge? I mean, committees are useful, but to get things done, 
implemented, et cetera, it usually has to have somebody who is 
responsible. Is there somebody that you have designated?
    Secretary Foxx. Well, look, ultimately I hold Michael 
Huerta responsible for that. But we have several units within 
FAA that focus on this within air traffic control, within 
certification, within a number of areas. But I think that is an 
area that we will focus on making sure there is appropriate 
accountability on these issues going forward.

                             SEQUESTRATION

    Senator Reed. I would just ask, if sequestration went into 
effect, could you deal with this issue, or would you be in 
such----
    Secretary Foxx. It would be tough. It would be very tough. 
We have already experienced just over the last couple of years 
what sequestration can do to our agency, and particularly 
ongoing operations. And actually FAA takes a point of pride 
that despite the shutdown and despite sequestration, we have 
been able to continue making progress of integrating more 
technology in the airspace. But it gets measurably harder when 
there is uncertainty.

                 TRANSIT IN SMALL URBAN AND RURAL AREAS

    Senator Reed. Let me turn to another topic, Mr. Secretary, 
and that is that we are pleased to see in the proposal 
additional resources, $75 million, for transit for small urban 
and rural areas. But the concern we have is that the way that 
the proposal is drafted, it has to have premium features, you 
know, dedicated rights-of-way and continuous services. For many 
communities they cannot do that for either financial reasons or 
for just practical reasons. And my concern is that there are 
cities that could use the help from Federal transportation to 
improve their transit, putting new software on their buses, new 
signaling devices, et cetera. And they will be shut out because 
they cannot respond to these premium features.
    What can you do to make sure that we can get some of this 
money out to some really deserving rural and small urban areas?
    Secretary Foxx. Well, I am glad you raised that because 
overall in the GROW AMERICA Act we are putting more than $1.6 
billion in place in fiscal year 2016 for State and rural 
transit programs and providers. That would include $810 million 
in transit formula grants, so that would be one place that 
rural communities and small communities could tap.
    The $75 million of which you spoke is the accelerated 
project delivery and development piece where we are trying to 
encourage local communities and transit agencies to adopt best 
practices in getting projects on the ground and rapidly 
providing service. Our hope is that there is low-hanging fruit 
that agencies can adopt quickly and to get access to those $75 
million funds. But we want to make sure that we are encouraging 
the rapid deployment of transit in addition to transit overall.
    Senator Reed. And I certainly think that is appropriate. It 
is just that there are some communities that they cannot get a 
dedicated right-of-way, et cetera, but they could do some 
significant things in terms of improving their transit delivery 
systems if they could access to at least a portion of this 
money. So I would ask you to think about that.
    My time has concluded. Thank you.
    Senator Collins. Thank you very much, Senator Reed. Senator 
Blunt.

                               TAX REFORM

    Senator Blunt. Thank you, Chairman. On the proposal on the 
multiyear bill that Senator Reed, Senator Collins, all of us 
want to see us get to a multiyear bill, you clearly cannot 
build infrastructure in an effective way 6 months or 2 years at 
a time. Your proposal--the administration's proposal that would 
close the gap between where the gas tax money is and sort of 
mid-level aspirations for what we could with infrastructure 
relates to taxing foreign profits. Would that be a mandatory 
tax, Secretary? Would that be a tax that would be on those 
profits whether they came back or not?
    Secretary Foxx. Yes. Yes. It is part of a larger 
comprehensive tax reform package, and there are several 
components, but I will talk about two. The way we pay for the 
GROW AMERICA Act is basically there is $1 to $2 trillion of 
existing overseas untaxed corporate earnings that would be 
taxed at a 14-percent rate. That is 21 percentage points lower 
than the current rate, so it provides an incentive for 
companies that want to bring money over. But either way that is 
the rate.
    For future profits, there would be a maximum of a 19-
percent U.S. rate and some discount for whatever applied rate 
those companies are paying in the country where the profits 
were realized. And that does not just pay for our bill. It is 
part of a larger corporate tax reform proposal that the 
administration is pursuing.
    Senator Blunt. And the reason for the mandatory rate is 
then you would have a guarantee of how much money would be 
coming in based on those profits that you could truly guarantee 
to a great extent what the highway bill would look like for 5 
or 6 years. Is that the reason for the mandatory as opposed to 
an optional rate if they bring it back?
    Secretary Foxx. It is a benefit, but also the classic 
repatriation proposal where there is a voluntary kind of tax 
holiday has not scored well. The tax reform proposal is a way 
that you can actually work to reduce the overall corporate tax 
rate and also bring those proceeds back home and put them to 
work.

                            HOURS OF SERVICE

    Senator Blunt. And my other question, Mr. Secretary, last 
year the spending bill suspended for 1 year the restart 
provisions in the 2011 rule on hours of service. As part of the 
suspension, the Department was asked to complete a study on the 
operational safety, health, and fatigue aspects of the restart 
provisions. How is that study going?
    Secretary Foxx. We have hired a consultant to perform the 
study. We are working very diligently to make sure not only 
that the study is credible, but that we are hearing from all 
the various stakeholders to make sure that this is as bullet 
proof a study as possible and that is has the kind of 
transparency and validity that everyone would expect. We are 
proceeding at pace with that, and I hope we are able to meet 
the deadlines that Congress has established.
    Senator Blunt. Thank you, Mr. Secretary. Thank you, 
Chairman.
    Senator Collins. Thank you. Senator Durbin.
    Senator Durbin. Thank you, Senator Collins. And, Mr. 
Secretary, good to see you again. Thanks for coming by my 
office. Let me echo previous comments supporting the TIGER 
program.
    Secretary Foxx. Thank you.

                           HIGHWAY TRUST FUND

    Senator Durbin. I also would add to my list a favorite--top 
favorites, the CREATE program, which means so much in our part 
of the world with so many railroads, and it has potential to 
expedite the movement of goods and alleviate some of the 
problems associated with rail traffic. Core capacity means so 
much to us. There was a time when it was difficult to wrest any 
funds out of the appropriation bill unless it was for ``new 
starts,'' and I think we have come to realize that a lot of old 
starts are still of tremendous value and need to be upgraded, 
and core capacity is part of that.
    Mr. Secretary, last Friday we had an anniversary 
celebration in Chicago of the passage of the Americans with 
Disabilities Act. Twenty-five years ago, Senator Bob Dole, Tom 
Harkin, President George H.W. Bush ended up making history in 
really liberating a huge number of Americans who were disabled 
from the bounds that--the binding that they faced in being 
unseen, unheard, and not part of America. I said at that 
anniversary that I wondered if the ADA could pass this Congress 
today, and I really seriously doubt that it could. It is an 
indication of our dysfunction and our inability to really 
address some of the basics.
    The transportation bill in Washington used to be one of the 
basics. Some of us who have served for a while can remember 
when this was the easiest bill on Capitol Hill. The easiest. 
Totally bipartisan. Members of the House begging to serve on 
the Public Works Committee so they could have a chance to grab 
that shovel, grab those scissors, and get a picture taken to 
help their districts, and senators to help their States. And we 
did it easily without any heavy lift.
    And now there is a serious question about whether this 
Congress can pass a transportation bill, and there are even 
members of the Senate and House who are arguing as to whether 
or not there should be a Federal transportation bill. Obviously 
they have never heard of a fellow named Dwight David Eisenhower 
and the interstate highway system.
    So the point I am getting to is I will support whatever 
funding source we can come up. I would certainly like to see it 
as more of a user fee tax related to the purchase of fuel, but 
I know that has diminishing returns with fuel economy. I would 
like to see some relief in tax for people of lower income who 
pay more--a disproportionate share of the tax from their 
income, but I am open. I am wide open.
    The thing that troubles me, Mr. Secretary, is we are 
talking about the repatriation of corporate profits to pay for 
a Federal highway bill, and we are basically grabbing at a 
source that I do not know we can count on on a regular basis. 
Maybe it gets us through the current crisis and that is all we 
could hope for, but what is your long-term view? What would you 
think is a reasonable revenue source for a Federal 
transportation bill that builds highways, sustains mass 
transit, and gives America a fighting chance to be competitive 
in the 21st century?
    Secretary Foxx. Well, it is a very tough question because 
there are lots of academic ideas, but at some level it becomes 
a question of what can get the political support to actually 
pass. I would say that, the points that have been raised about 
the fact that our proposal is a 6-year proposal, are fair 
points. But I also would be remiss if I did not remind us all 
that we have had 32 short-term extensions in the last 6 years, 
and having 6 years of stability is a far cry from where we have 
been over the last 6 years.
    Now, having said that, there are a lot of ideas that are 
out there. There are ideas about vehicle miles traveled. There 
are about ideas about user fees going up to the wholesale level 
to raise revenue on the barrel as opposed to at the point. 
There are lot of ideas, and you are seeing States experiment 
with some of these ideas.
    Senator Durbin. States are raising their gas taxes.
    Secretary Foxx. Some of them are, absolutely. And I would 
also add that in many States where voters, and Governors, and 
leaders have worked really hard to put more revenue on the 
table to get more things done, the States are still standing on 
the shoulders of the Federal funding. And if that Federal 
funding goes away, they are not going to be able to repair 
infrastructure as needed.
    Senator Durbin. It is 75 percent of the highway 
construction in Illinois through Federal funds, some 80 percent 
of the mass transit through Federal funding. And what you have 
just said, 32 short-term extensions of the Federal highway bill 
is the definition of dysfunction. And I might also add, I do 
not believe we can patch our way to prosperity in this Nation. 
Filling potholes does not build a highway, and we are gearing 
up to fund the Federal commitment to patch these potholes 
instead of building an America that can succeed in the future.

                   SAFE TRANSPORT OF ENERGY PRODUCTS

    I will close by saying I know you talked before I came in 
about tank cars. We had a long conversation. I hope we move to 
a new generation of safer tank cars, take the ones we have on 
the rails, and make them even safer. And I hope that we can 
address this volatility question of the contents of those cars, 
which I have discussed with you, and Senator Cantwell, and 
others. Thank you for your testimony.
    Secretary Foxx. Thank you.
    Senator Collins. Thank you. Senator Capito.
    Senator Capito. Thank you. Thank you, Madam Chair, and I 
want to thank the Secretary for being here with us today. I 
want to talk also about the tank cars. As you know, one of the 
recent accidents occurred actually in West Virginia in Fayette 
County. In that instance, a 109-car train was carrying more 
than 3 million gallons of Bakken oil from North Dakota when 27 
of those cars derailed. I am sure you saw the pictures. 
Thankfully nobody was hurt, and we were really pleased about 
that.
    But it is my understanding that this rule that was supposed 
to be finalized, it was supposed to be finalized in January if 
I am correct, and that many people, not just on the safety 
side, but on the business side, too, need the finality of that 
rule, which would be provided by either requiring that they are 
replaced or retrofitted because in that accident they had the 
1232 cars, as I am sure you are aware. They were not, I guess, 
blanketed or they were not--so I am very, very interested in 
that.
    You have talked about the status of the rule, but if you 
could just reiterate that, and then what kind of commitment do 
you have to getting this out as quickly as possible.
    Secretary Foxx. Well, it is a top priority for me. Lac-
Megantic, the incident that really drew the world's attention 
to this transport of crude by rail, happened 4 days into my 
tenure as Secretary of Transportation. This is an issue I have 
been dealing with almost from day one. We have been working 
feverishly on lots of approaches to this, including 24 actions 
that were taken immediately following Lac-Megantic, and then 
additional actions that we have taken as recently as last week.
    I agree with you that the production of the final rule not 
only on the tank cars, but on a range of issues that affect the 
safety of the transport of this material is critical, and we 
are continuing to work with OMB. Because of the way the process 
works, I am not at liberty to at this point offer you a date or 
a time, but I can tell you that we are working very, very 
closely with them, and I think we are getting very close.
    Senator Capito. Well, I am happy to know you are getting 
close. I would encourage you sooner than later, as I am sure 
you feel the same way.
    You know, I am curious to know, too, I think the incidents 
that are occurring, and there was one in Illinois, I believe, 
after the West Virginia accident. I think it brings to light 
the national discussion of pipelines. I know you do pipeline 
safety within your Department. I guess I would be very 
interested to see juxtaposing, you know, carrying this crude 
through a pipeline onto a train. I know we are going to need 
both. But as you know, one of the pipelines that we voted for 
here has been the subject of much controversy. Do you have any 
comments on that in terms of relative safety issues, or lack of 
infrastructure, or anything along those lines, pipelines? I 
would be interested in your comments.
    Secretary Foxx. Well, from a Department standpoint, we are 
agnostic when it comes to how this stuff moves. Our main point 
is to make sure that however it is moving, whether it is by 
truck or by rail or by pipeline, that it is moving safely. I 
will point out that pipelines are not immune----
    Senator Capito. Absolutely.
    Secretary Foxx [continuing]. From spills and accidents. In 
fact, we recently had a spill in Montana in the Yellowstone 
River of a significant amount of crude oil from the North 
Dakota area. So, you know, we will continue working to make 
sure every modality that is used to move this material is a 
safe modality.
    Senator Capito. Let me ask you, too, in the rule that you 
are putting forward on the tank car issue, is that exclusively 
or principally on oil transport, or does it include a lot of 
other transport? I mean, I would like to see that prioritized 
because obviously that has been the issue.
    Secretary Foxx. So in the notice of proposed rulemaking 
that was issued last fall, we focused on the same level of risk 
category, so not only the crude oil, but also something like 
ethanol that is in the same class of material, would also be 
covered by our rule.
    Senator Capito. Well, I would suggest that or ask is there 
any way to put a higher priority on the oil transport. It 
obviously came up very quickly because of the discovery. There 
are a lot of unknowns with it, and there have been some issues. 
So I would encourage or ask if there is any way we could like 
higher prioritize that. It is a newer material that, you know, 
we have been carrying ethanol for a long time on our rail 
systems and on our roads. So I think this is a bipartisan issue 
in terms of the urgency that we feel.
    And I would like to say with the four seconds I have left, 
a robust 6-year highway program is something that I am very 
passionate about, and we can work together. And we have had a 
rough winter, so if anybody wants to have an illustration--I 
know we do want to spend all of our money repairing the roads, 
but we need a lot of repair money, too, because there are a lot 
of potholes out there.
    Secretary Foxx. Absolutely.
    Senator Capito. Thank you.
    Secretary Foxx. Thank you.
    Senator Collins. Thank you. Senator Feinstein.

                       UNMANNED AIRCRAFT SYSTEMS

    Senator Feinstein. Thank you very much, Madam Chairman. Mr. 
Secretary, welcome, and thank you for your service. I would 
like to speak with you in my brief time about two issues. The 
first is drones, and the second is positive train control.
    On the first, we have been working with some of your people 
on legislation, and I want to thank you for that. I have been 
very concerned about where the FAA is going to go and whether 
it is sufficient--if it is going to have sufficient regulatory 
authority. They have the authority over large drones and small 
commercial drones, but not over small recreational drones. And 
it is clear to me that these drones can also provide a 
substantial safety risk in untrained hands, and I think this is 
a gap in the legislative authority of the regulatory agency. 
And it also prevents FAA from regulating drone manufacturers, 
which are currently exempt from FAA regulation if their drones 
might be used for a recreational purpose.
    I think there are some very constructive steps that can be 
taken. For example, the FAA should have the ability to require 
that manufacturers put a safety brochure, like their ``Know 
Before You Fly'' pamphlet, in the box with every consumer drone 
that is sold. The FAA should be able to require that every new 
drone have the same type of virtual geo-fencing technology that 
some manufacturers are already doing voluntarily.
    It is my understanding that after the drone crashed into 
the White House lawn in January, the drone's manufacturer put 
out a software update for its newest models that established 
that a virtual fence around Washington, DC-only-that would 
prevent these drones from coming too close to the city. I think 
that is very helpful. It is too bad it was only one 
manufacturer, and it took an accident, to have that happen. But 
Washington is not the only community that deserves this 
protection, and the FAA does not currently have the authority 
to require manufacturers to follow suit.
    I would like to know what your views are, and would 
additional regulatory authority from Congress be helpful for 
FAA to achieve these goals.
    Secretary Foxx. Well, first of all, Senator Feinstein, I 
want to thank you for your leadership on this issue. We have 
had several colloquies over the years on this topic, and your 
focus on it is appreciated.
    Senator Feinstein. Thank you very much.
    Secretary Foxx. The FAA does have many challenges when it 
comes to managing this emerging issue, and the gaps that you 
have identified are, in fact, gaps, and we welcome your 
engagement on this issue and the efforts that you are 
undertaking to look at legislative solutions to this.

                         POSITIVE TRAIN CONTROL

    Senator Feinstein. Thank you very much. My other big 
priority, positive train control. The 2008 Metrolink crash 
really brought home the problems of single tracks and commuter 
trains going one way and freight trains going the other. It is 
hard for, I think, anyone to see bodies chopped into parts when 
these accidents happen. And I think positive train control is 
one of the most important things our Government can do to 
prevent this from happening.
    I have been concerned by the time it takes, and I am 
particularly concerned whether Metrolink can get approval this 
year to be able to move ahead. They are ready to do so. Could 
you tell me what you know about that and whether it is possible 
for Metrolink, which is our big commuter Southern California 
line, to get that approval?
    Secretary Foxx. We think this is an urgent issue all across 
the country, and particularly with Metrolink. Our team stands 
ready to help. We do believe that if Metrolink is able to 
provide us with their package as quickly as possible that we do 
have the resources in place and the ability to get that 
certification done by the end of the year. So we would like to 
work very closely with you to make sure that happens.
    Senator Feinstein. Well, thank you, and we will relay that 
promptly to Metrolink, and let you know when they will have 
their package in. And then if you could let me know if that 
would be adequate for you to be able to certify it or prove it 
by the end of the year, I would appreciate it.
    Secretary Foxx. Absolutely.
    Senator Feinstein. Thank you very much, Mr. Secretary. 
Thank you, Madam Chairman.
    Senator Collins. Thank you. Senator Daines.

                              NOMINATIONS

    Senator Daines. Thank you, Madam Chair. Secretary Foxx, I 
do share your concerns in your statement today that people 
outside the beltway desperately want us to find a way to work 
together here in Washington and fix the serious transportation 
issues we have in America. In northern States like Montana 
where our construction season is short, we need to get some 
certainty. And we cannot begin these much needed projects in 
Montana without another short-term highway funding extension. 
So you have my commitment. I think you have everybody on this 
dais' commitment that we are going to work hard in the Senate 
to get a long-term funding bill through the U.S. Senate.
    The last time we met was at a Senate Commerce Committee. It 
has been about 6 weeks ago. We discussed the challenges we know 
you are facing regarding the multiple vacancies in key 
agencies, and you said there is an awful lot of work underway 
to move forward in some of these key roles. I think at that 
time there were five major operating agencies in the DOT that 
had acting administrators. My question is what is the 
disconnect, and why has the administration not nominated anyone 
for these positions?
    Secretary Foxx. Well, having been through the process, it 
takes a while from the time someone agrees to do the job. There 
is a very extensive process that is involved in this. What I 
can tell you is that we have one of those five pending 
vacancies in front of Congress today, and we would be delighted 
to have Congress take up that confirmation as soon as possible. 
The other four are in some stage of process, and my hope is 
that moves along a pace and we are able to get those up soon.
    Senator Daines. Yes. We are looking at the website here 
today. I know Mr. Nadeau is listed as an acting administrator. 
Is he still in an acting role?
    Secretary Foxx. He is actually now deputy administrator 
again because of the length of time.
    Senator Daines. We have that Federal Vacancies and Reform 
Act, I believe, when you hit that 210 days.
    Secretary Foxx. Exactly.
    Senator Daines. And then he moves to deputy. Is that the 
way it works?
    Secretary Foxx. That is correct.
    Senator Daines. It sounds like a loophole in the rule a 
little bit there in terms of the push to try to get it filled, 
which, you know, I share your pain on that. I cannot imagine 
running an organization with having these open headcounts in 
these very, very key positions.

                   SAFE TRANSPORT OF ENERGY PRODUCTS

    Let me turn and shift to Pipeline and Hazardous Materials 
Safety Administration (PHMSA), and you mentioned the pipeline 
spill in Montana that we saw happen on the Yellowstone River. 
We had some 30,000 gallons of crude dump into the Yellowstone. 
The Yellowstone is a tremendous fishery. It is the water source 
for many communities in Montana. I have spent a lot of hours in 
a McKenzie boat fishing on that river.
    The PHMSA acting admin's term expires on May 2, and Mr. 
Butters, in fact, came up to Montana, your deputy. I had a 
great meeting with him. He witnessed actually and we pulled up 
that broken pipe. We saw that it was a 1955 pipe that had a 
weld that looks that probably failed on it. Could you help 
explain the interim plan for the next acting administrator 
because on May 2, I believe, in PHMSA we are going to hit that 
same 210-day threshold. What is the plan going forward?
    Secretary Foxx. Well, the plan is currently that Mr. 
Butters will continue to serve as the leader of the 
organization until a nomination is put forward in a 
confirmation vote by the Senate. And my hope is that that 
nomination will be imminent and that you will have an 
opportunity help us put a leader in place in that agency.
    Senator Daines. You said you had one, I think, of the five 
positions in this long, arduous process. What is the plan now 
for other four to get these positions filled as soon as 
possible?
    Secretary Foxx. Well, as I said in the Commerce hearing, we 
have been working very closely with the White House on these 
issues, and, of course, the prerogative is ultimately the 
President's to put up a nomination. And my belief is that the 
positions that you are talking, all four of the other 
positions, are in some stage of the process, and that at the 
President's time, those nominations will be made.
    Senator Daines. Do you know why it is taking so much time? 
I mean, there have got to be some very qualified people here in 
this country, and we are dealing with pipelines breaking, 
railcar challenges. I cannot think of anything more important 
to make sure we have the right leadership here filling these 
positions. If I was looking at my to do list every day in terms 
of the threats to safety for people as well as challenges for 
our environment, why is there not more being done there?
    Secretary Foxx. Well, look, I do not think it is a matter 
of effort. Frankly, having observed this process for quite a 
while, I think there are a fair number of very qualified people 
who look at what one has to go through to go through this 
process, including having months on end of a pending nomination 
that they at some point they say, hey, it is okay, I can do 
whatever else I am doing, and serving the public will have to 
come later.
    I cannot overstate how challenging it becomes to give up 
their time and private sector lives or whatever else they are 
doing to invest in moving forward into a Government position, 
and in some cases spend months, in some cases more than a year, 
waiting for a nomination.
    Senator Daines. Yes, it is one more part of the uncertainty 
it puts in front of a--is a barrier, I think, to moving forward 
here on many, many issues. But my time is up, Secretary Foxx. 
Thank you.
    Secretary Foxx. Just know this. I am moving as quickly as 
we can, and we look forward to getting those nominations up to 
you.
    Senator Daines. Thank you, Mr. Secretary.
    Secretary Foxx. Yes, sir.
    Senator Collins. Senator Coons.

                           NORTHEAST CORRIDOR

    Senator Coons. Thank you, Chair Collins and Ranking Member 
Reed, for convening this hearing today, and thank you, 
Secretary Foxx, for your positive, energetic, can-do approach 
to what are the very real and lasting challenges of 
transportation infrastructure for our country. I want to 
specifically thank you and your staff for your very responsive 
attitude when we had a challenge with the I-495 bridge in 
Delaware as you well remember. We unexpectedly found ourselves 
really challenged with the closure of a bridge to ground 
shifting that detoured 90,000 cars a day, and the speed and 
thoroughness with which you responded and helped us get access 
to emergency relief funding and get the bridge back up and open 
I think surprised and impressed everyone in the greater 
Philadelphia and Wilmington area. So thank you. And thank you 
also for your advocacy and leadership in seeking a long-term 
blueprint. You have heard from many members today that we share 
your concern that in the absence of a long-term 
reauthorization, we are steadily falling behind.
    Your testimony today referenced that just in the little 
State of Delaware--small, but mighty State of Delaware--there 
is $600 million worth of transportation infrastructure work 
that is on hold due to uncertainty with the Federal Highway 
Trust Fund. So by not moving these projects, I think we 
continue to put at risk jobs, infrastructure, and 
competitiveness, things that I care about a great deal.
    Let me turn, if I might, to Amtrak, where I took the 6:25 
a.m. train down this morning and, God willing, will take the 
6:05 p.m. train home. As you all know, I commute virtually 
every day, and I am very pleased to see your request of $4.8 
billion for this coming fiscal year and $28.6 billion over the 
coming 6-years for the development of both high-performance 
rail and investment in our national passenger and commuter rail 
system as part of an integrated--for the first time really, as 
a fully integrated national transportation strategy.
    Passenger rail is critical to our overall national 
transportation strategy, and fixing our network and investing 
in state of good repair I think is essential to reducing 
congestion, improving efficiency, and to connecting towns 
across America. Amtrak has set ridership and revenue records 
year over year, but at the same time we are continuing to under 
invest in this critical infrastructure.
    So last month I led a letter with Pennsylvania Senator 
Casey and 20 other Senators asking the subcommittee to consider 
funding Amtrak at $2 billion for fiscal year 2016. And I would 
be interested in hearing what you believe we need to do in 
order to continue both improving service and making progress 
towards achieving a state of good repair in the Northeast 
corridor.
    Secretary Foxx. I think it is an excellent question, and it 
speaks to one of the fundamental tenets of the GROW AMERICA 
Act, which is that it is not just the year-to-year funding that 
we need to put Amtrak on a more stable footing to not only be 
able to improve its operation, but also to make sure it is 
managing the state of good repair of the system, that it is 
having multiyear certainty, that it is also very critical.
    Our bill puts fully $28.6 billion over 6 years into a 
passenger rail system so that there is multiyear certainty that 
allows Amtrak to actually plan. I think one of the things 
Amtrak suffers from is just not being able to plan beyond the 
current year. And I think it is very important for us to start 
thinking of our passenger rail system as a critical part of the 
overall surface system, and our budget reflects that.
    Senator Coons. Well, one of the things I will commend you 
for is proposing a dedicated funding stream for rail comparable 
to highway and transit, and I really hope we can include that 
in the reauthorization for surface transportation.
    Let me ask you one other question in the time I have. It is 
my understanding Amtrak has submitted an application for a 
Railroad Rehabilitation and Improvement Financing (RRIF) loan 
to help finance the replacement of the current Acela fleet. The 
program is authorized to provide loans and loan guarantees up 
to $35 billion, and only a fraction of it has been tapped.
    Amtrak is seeking this loan to replace the Acela fleet in 
advance of it desperately needing to be replaced. It would 
provide major benefits for the Northeast corridor. I am a 
strong supporter of using this program to finance critical 
infrastructure projects like this, and I hope we can overcome 
any potential concerns or issues. And just wondered if you 
could give me an update on where that loan approval process 
stands and on what timeline you think there might be a final 
decision on that loan application.
    Secretary Foxx. The loan application is under review. I 
know that Amtrak is anxious to get a decision on this soon. I 
would expect that by the middle or end of the summer we should 
have a final call on that.
    The point that you make about the RRIF program is also a 
very important point because we find that many transportation 
systems do not make use of RRIF partly because of the credit 
risk premium that is required up front. One of the things the 
GROW AMERICA Act does is allows Federal Rail Administration 
grants to be used as part of the credit risk premiums so that 
we can make better use of the RRIF program as well. So I wanted 
to make that point.
    Senator Coons. Well, this is just another, I think, 
example, Mr. Secretary, of an area where you have real command 
of the underlying facts and issues and where you are working to 
solve what have been longstanding challenges that have been 
real barriers to our ability to invest responsibly over the 
long term in passenger rail for the whole country. Thank you 
for your testimony today.
    Secretary Foxx. Thank you.
    Senator Coons. I look forward to working together with you 
on this important issue.
    Secretary Foxx. Thank you.
    Senator Collins. Senator Boozman.

                               PERMITTING

    Senator Boozman. Thank you, Madam Chair, and thank you, 
Secretary Foxx, for being here, and we really do appreciate 
your hard work. I know that you have faced some difficult 
challenges as we do as a Congress, you know, in making it such 
that we have the infrastructure that we need in this country.
    One thing that I have to mention, and you mentioned in your 
testimony and I appreciate it, and it is just constantly 
brought up is trying to get the--modernizing the permitting 
process.
    Secretary Foxx. Yes.
    Senator Boozman. You know, getting it up to snuff. We talk 
a lot about things that cost money. This is something that 
would save a tremendous amount of money, and I know that you 
are working hard to do that in your particular agency. Tell me 
about the cooperation with the other agencies. Are you making 
any headway to try and get them to understand how important 
this is?
    Secretary Foxx. On a project by project basis, we have been 
able to actually work very well with other agencies. One 
example that I use commonly is the Tappan Zee Bridge Project, 
which ordinarily would have taken 3 to 5 years of permitting 
work at the Federal level, we were able to get that done in 
about 18 months. And we did it by bringing all the agencies to 
the same table at the same time to work through the permitting 
issues each agency had.
    The place where I would like to take this and where we 
would love to have Congress' help and, of course, your 
subcommittee's help is routinizing that type of process. We 
want to create a system where this becomes more of the norm as 
opposed to an exception. And our budget also reflects a 
permitting center that we would like to stand up in order to 
help accelerate projects.
    Senator Boozman. Very good. And certainly anything we can 
do to assist you, and I think I speak for the entire committee, 
the entire Congress, we will be glad to help in that regard.

                         AIRCRAFT CERTIFICATION

    We are very proud of our aviation aerospace, you know, 
entities in Arkansas. In regard to efficient processes, can you 
talk a little bit about what is going on in making the FAA 
certification process as efficient, you know, promotes safety, 
and enhances competitiveness?
    Secretary Foxx. We are working through the FAA to improve 
the overall effectiveness and efficiency of aircraft part 
certification by implementing a system safety approach. We are 
committed to using all of our available tools under the FAA 
Modernization Act to support it. We have to do this on a case-
by-case basis working carefully with each manufacturer to 
assure that that manufacturer has the protocols in place to be 
as safe as possible and that they are certified to our 
standards. But, we are going to do everything we can to work 
with them to accelerate the certification process.
    Senator Boozman. The Small Airplane Revitalization Act 
requires improvements to the certification process for small 
airplanes by modernizing part 23 airworthiness regulations, 
which will enhance safety and reduce costs. FAA, DOT, and OMB 
must focus on a coordinated and concurrent review process to 
ensure notice of proposed rulemaking is issued by the summer of 
2015. A failure to act would cede international leadership to 
other regulatory authorities. Can you talk again, maybe in a 
little bit of detail, about implementing the requirements of 
the act?
    Secretary Foxx. Well, again, I think what the FAA is 
purporting to do is to work with each individual manufacturer. 
What we do not want to do is to essentially certify a 
manufacturer to manage certain parts of our protocols on their 
own if they are incapable of actually doing it. And so, we have 
a process by which our teams go into the manufacturer and 
stress test their safety protocols, and if we are confident 
that they can meet or exceed the standards that we have set, 
and we have precedent for having allowed some of the 
manufacturers to do that.
    Now, on the large scale, in some of its facilities, Boeing 
has that. On the small scale I cannot cite you chapter and 
verse yet of who is able to do it, but I can certainly get a 
list to you.
    Senator Boozman. Thank you very much. Thank you, Madam 
Chair.
    [The information follows:]

    The authority for a company to perform work on the FAA's behalf, 
approving designs and issuing FAA approvals, is done under the 
Organization Designation Authorization (ODA) Program. There are a total 
of 85 companies that hold some form of ODA authority, but only 11 of 
those companies are authorized to act on the FAA's behalf in regard to 
approving the design aspects related to type certification (TC) of 
their new aircraft, propeller and engine designs.
    The large aircraft manufacturers that have TC ODA authority include 
Boeing and Gulfstream. Among small aircraft manufacturers, Beechcraft, 
Cessna, and Piper Aircraft have TC ODA authority. Other companies with 
TC ODA authority for rotorcraft and engines include Bell Helicopter, 
Hartzell Propeller, Sikorsky, Williams International, Honeywell and GE. 
Many other ODAs organizations are authorized to issue Supplemental Type 
Certificates (STC) or perform other functions on behalf of the FAA.

                 FAA ORGANIZATION DESIGNATION AUTHORITY
------------------------------------------------------------------------
                                       Designee
       Name          ODA Types*        Number**        Managing Office
------------------------------------------------------------------------
Air Flite, Inc.    MRA             ODA (AFS)-833993- Oklahoma City (FSDO-
 (Shawnee, OK)                      SW                15)
CATS (San Mateo,   AKT             ODA (AFS)-834175- Oklahoma City (AFS-
 CA)                                SW                600)
CSI (Broken        MRA             ODA (AFS)-833571- Oklahoma City (FSDO-
 Arrow, OK)                         SW                15)
Delta (NWA-ODA)    MRA             ODA (AFS)-405259- Delta CMO (FSDO-27)
 (St. Paul, MN)                     GL
Fdea (Memphis,     MRA             ODA (AFS)-200091- Memphis (FSDO-21)
 TN)                                CE
Ham Sundstrand     MRA             ODA (AFS)-400100- West Chicago (FSDO-
 (Rockford, IL)                     GL                03)
Hyannis Air        MRA             ODA (AFS)-830327- Lexington (AEA FSDO
 (Hyannis, MA)                      NE                61)
Mid-Continent      MRA             ODA (AFS)-230381- Wichita (FSDO-07)
 (Wichita, KS)                      CE
PHI (Lafayette,    MRA             ODA (AFS)-831285- Baton Rouge (FSDO-
 LA)                                SW                03)
PSI (Vancouver,    AKT             ODA (AFS)-834176- Oklahoma City (AFS-
 WA)                                SW                600)
United Parcel S    MRA             ODA (AFS)-510625- Louisville (FSDO-
 (Louisville, KY)                   CE                17)
Woodward Gov Co    MRA             ODA (AFS)-400102- West Chicago (FSDO-
 (Rockford, IL)                     GL                03)
3S (Wichita, KS)   STC             ODA (AIR)-833355- Wichita ACO (ACE-
                                    CE                115W)
Adams Rite         PMA             ODA (AIR)-830267- LA MIDO (ANM-108L)
 (Fullerton, CA)                    NM
AeroMech           STC             ODA (AIR)-635882- Seattle ACO (ANM-
 (Everett, WA)                      NM                130S)
Air Methods        STC             ODA (AIR)-635841- Denver ACO (ANM-
 (Englewood, CO)                    NM                100D)
AirbusHeli (Grand  STC             ODA (AIR)-700097- Ft Worth Rotorcraft
 Prairie, TX)                       SW                Certification
                                                      Office (ASW-170)
Aircraft Maint     MRA,STC         ODA (AIR)-700576- Ft Worth ACO (ASW-
 (Oklahoma City,                    SW                150)
 OK)
Alcoa (Torrance,   PMA,TSOA        ODA (AIR)-602094- LA MIDO (ANM-108L)
 CA)                                NM
Amer Airlines      MRA,STC         ODA (AIR)-700094- Ft Worth Special
 (Tulsa, OK)                        SW                Certification
                                                      Office (ASW-190)
AmSafe Bridport    PMA             ODA (AIR)-833352- New Cumberland MIDO
 (Erie, PA)                         NE                (NE-MIDO-44)
Amsafe (Phoenix,   PMA,TSOA        ODA (AIR)-602112- Phoenix MIDO (ANM-
 AZ)                                NM                108P)
ARINC COS          STC             ODA (AIR)-636304- Denver ACO (ANM-
 (ColoradoSprings                   NM                100D)
 , CO)
Associated Air     MRA,STC         ODA (AIR)-710437- Ft Worth Special
 (Dallas, TX)                       SW                Certification
                                                      Office (ASW-190)
Beechcraft         PC,STC,TC       ODA (AIR)-230339- Wichita ACO (ACE-
 (Wichita, KS)                      CE                115W)
Bell Helicopter    MRA,PC,STC,TC   ODA (AIR)-710621- Ft Worth Rotorcraft
 (Fort Worth, TX)                   SW                Certification
                                                      Office (ASW-170)
Bfgoodrich         PMA,TSOA        ODA (AIR)-602154- Phoenix MIDO (ANM-
 (Phoenix, AZ)                      NM                108P)
Boeing (Oklahoma   MRA,STC         ODA (AIR)-501296- Wichita ACO (ACE-
 City, OK)                          CE                115W)
Boeing (Seattle,   MRA,PC,TC       ODA (AIR)-300064- BASOO (ANM-100B)
 WA)                                NM
Cert Works         MRA,STC         ODA (AIR)-833887- Denver ACO (ANM-
 (Bennett, CO)                      NM                100D)
Cessna Aircraft    MRA,PC,TC       ODA (AIR)-100129- Wichita ACO (ACE-
 (Wichita, KS)                      CE                115W)
C&D Zodiac         PMA,STC,TSOA    ODA (AIR)-606394- LA ACO (ANM-150L)
 (HuntingtonBeach                   NM
 , CA)
Dassault-Wilm      STC             ODA (AIR)-955240- New York ACO (ANE-
 (New Castle ,                      NE                172)
 DE)
Delta (New         PMA,PC,STC      ODA (AIR)-800728- New York ACO (ANE-
 Castle, DE)                        NE                171)
Duncan (Lincoln,   MRA,PMA,STC     ODA (AIR)-501013- Wichita ACO (ACE-
 NE)                                CE                115W)
Envoy Aerospace    STC             ODA (AIR)-831240- Chicago ACO (ACE-
 (Gahanna, OH)                      CE                117C)
Flight Structur    PC,STC          ODA (AIR)-635712- Seattle ACO (ANM-
 (Marysville, WA)                   NM                150S)
Garmin (Olathe,    PMA,STC,TSOA    ODA (AIR)-240087- Wichita ACO (ACE-
 KS)                                CE                115W)
General Elec       PC,TC           ODA (AIR)-400080- Burlington Engine
 (Cincinnati, OH)                   NE                Certification (ANE-
                                                      140)
Goodrich (Troy,    PMA,TSOA        ODA (AIR)-830448- Vandalia MIDO (CE-
 OH)                                CE                MIDO-48)
Gulfstream         MRA,PMA,PC,STC  ODA (AIR)-511131- GASOO (ACE-100G)
 (Savannah, GA)     ,TC             CE
HamSundstrand      PMA,PC,TSOA     ODA (AIR)-810310- Windsor Locks MIDO
 (Windsor Locks,                    NE                (NE-MIDO-41)
 CT)
Hartzell Propel    PMA,PC,STC,TC   ODA (AIR)-100082- Chicago ACO (ACE-
 (Piqua, OH)                        CE                118C)
Heico (Hollywood,  PMA             ODA (AIR)-833182- Atlanta ACO (ACE-
 FL)                                CE                102A)
HRD AeroSystems    PMA             ODA (AIR)-834304- Van Nuys MIDO (ANM-
 (Valencia, CA)                     NM                108V)
HWI (Phoenix, AZ)  MRA,PMA,PC,STC  ODA (AIR)-602216- Phoenix MIDO (ANM-
                    ,TSO A,TC       NM                108P)
Iae (Glastonbury,  PC              ODA (AIR)-400098- Windsor Locks MIDO
 CT) for NE41                       NE                (NE-MIDO-41)
Jamco America      PMA,PC,STC,TSO  ODA (AIR)-300006- Seattle ACO (ANM-
 (Everett, WA)      A               NM                150S)
Jet Aviation       MRA,STC         ODA (AIR)-500004- Chicago ACO (ACE-
 (Cahokia, IL)                      CE                116C)
L-3 Comm. (Grand   PMA,TSOA        ODA (AIR)-501579- Detroit MISO (CE-
 Rapids, MI)                        CE                MISO-53)
L3 Comm (Waco,     STC             ODA (AIR)-750154- Ft Worth Special
 TX)                                SW                Certification
                                                      Office (ASW-190)
L3 Greenville      MRA,STC         ODA (AIR)-750173- Ft Worth Special
 (Greenville, TX)                   SW                Certification
                                                      Office (ASW-190)
Learjet Corpora    STC             ODA (AIR)-605786- LA ACO (ANM-150L)
 (Tucson, AZ)                       NM
Learjet Inc        MRA,PC,STC      ODA (AIR)-501508- Wichita ACO (ACE-
 (Wichita, KS)                      CE                115W)
Lycoming           MRA,PC          ODA (AIR)-830878- New Cumberland MIDO
 (Williamsport,                     NE                (NE-MIDO-44)
 PA)
Meggitt (Simi      PMA,TSOA        ODA (AIR)-834331- Van Nuys MIDO (ANM-
 Valley, CA)                        NM                108V)
NAT (Everett, WA)  STC             ODA (AIR)-636059- Seattle ACO (ANM-
                                    NM                150S)
Ontic              PMA             ODA (AIR)-636120- Van Nuys MIDO (ANM-
 (Chatsworth, CA)                   NM                108V)
Pac-Sci (Duarte,   PMA,TSOA        ODA (AIR)-830416- Van Nuys MIDO (ANM-
 CA)                                NM                108V)
Panasonic Avio     PMA             ODA (AIR)-300022- Seattle MIDO (ANM-
 (Bothell, WA)                      NM                108S)
Parker Hannifin    PMA             ODA (AIR)-601536- LA MIDO (ANM-108L)
 (Irvine, CA)                       NM
PATS Aircraft      PMA,STC         ODA (AIR)-955292- New York ACO (ANE-
 (Georgetown, DE)                   NE                170)
Piper Aircraft     TC              ODA (AIR)-510620- Atlanta ACO (ACE-
 (Vero Beach, FL)                   CE                102A)
Pratt & Whit       MRA,PMA,PC      ODA (AIR)-800004- Windsor Locks MIDO
 (East Hartford,                    NE                (NE-MIDO-41)
 CT)
ProStar            STC             ODA (AIR)-833063- Boston ACO (ANE-
 (Londonderry,                      NE                150)
 NH)
Ram Aircraft       PMA,STC         ODA (AIR)-700100- Ft Worth Special
 (Waco, TX)                         SW                Certification
                                                      Office (ASW-190)
RHC (TORRANCE,     PC              ODA (AIR)-606172- LA MIDO (ANM-108L)
 CA)                                NM
Rockwell (Cedar    PMA,STC,TSOA    ODA (AIR)-500864- Wichita ACO (ACE-
 Rapids, IA)                        CE                115W)
Rockwell (Tustin,  PMA             ODA (AIR)-606445- LA MIDO (ANM-108L)
 CA)                                NM
Rohr Inc. (Chula   PMA             ODA (AIR)-830174- LA MIDO (ANM-108L)
 Vista, CA)                         NM
Rolls-Royce        PC              ODA (AIR)-405265- Vandalia MIDO (CE-
 (Indianapolis,                     CE                MIDO-48)
 IN)
S Tec Corp         STC             ODA (AIR)-700096- Ft Worth ACO (ASW-
 (Mineral Wells,                    SW                150)
 TX)
Sikorsky           MRA,PC,STC,TC   ODA (AIR)-800001- Boston ACO (ANE-
 (Stratford, CT)                    NE                150)
SMR B/E (Fenwick,  PMA             ODA (AIR)-810299- New Cumberland MIDO
 WV)                                NE                (NE-MIDO-44)
Standard Aero      STC             ODA (AIR)-100079- Chicago ACO (ACE-
 (Springfield,                      CE                116C)
 IL)
Standard Aero,.    MRA             ODA (AIR)-832603- Atlanta ACO (ACE-
 (Maryville, TN)                    CE                102A)
Thales (Irvine,    PMA             ODA (AIR)-601836- LA MIDO (ANM-108L)
 CA)                                NM
Timco              PMA,STC         ODA (AIR)-100214- Atlanta ACO (ACE-
 (Greensboro, NC)                   CE                102A)
UnitedAir          MRA,STC         ODA (AIR)-710450- Ft Worth ACO (ASW-
 (Houston, TX)                      SW                150)
Usairways          STC             ODA (AIR)-800978- New York ACO (ANE-
 (Pittsburgh, PA)                   NE                171)
UTC/GSIS (Union,   PMA             ODA (AIR)-400003- New Cumberland MIDO
 WV)                                NE                (NE-MIDO-44)
VT DRB Aviation    MRA,STC         ODA (AIR)-831473- Ft Worth Special
 (San Antonio,                      SW                Certification
 TX)                                                  Office (ASW-190)
Wencor             PMA             ODA (AIR)-601415- Denver ACO (ANM-
 (Springville,                      NM                100D)
 UT)
Williams Intl      PC,TC           ODA (AIR)-100175- Chicago ACO (ACE-
 (Walled Lake,                      CE                118C)
 MI)
WSA (Grand         STC             ODA (AIR)-834270- Denver ACO (ANM-
 Junction, CO)                      NM                100D)
------------------------------------------------------------------------
* Key
TC-Type Certification
STC-Supplemental Type Certification
PC-Production Certification
TSOA-Technical Standard Order Authorization
PMA-Parts Manufacturer Approval
MRA-Major Repair, Alteration and Airworthiness
AKT-Airman Knowledge Testing
 
** Key
AFS-FAA Flight Standards Service
AIR-FAA Aircraft Certification Service


    Senator Collins. Thank you very much. Senator Murphy.

                           NORTHEAST CORRIDOR

    Senator Murphy. Thank you very much, Madam Chair. Good to 
see you, my friend. Thank you first for making your first 
official visit when you were confirmed as Secretary to New 
Haven, Connecticut. We appreciated that in part because of the 
attention that you were paying then and have paid to the 
Northeastern rail corridor, and I really wanted to build off of 
Senator Coons' questions. He was talking about the budget for 
Amtrak writ large, but I wanted to drill down on the 
Northeastern rail corridor.
    We are talking about a section of the country that is only 
about 2 percent of the Nation's land mass, but has 20 percent 
of the rail traffic and about 19 percent of the Nation's GDP. 
And when I heard Senator Daines talk about a pipe which was 
constructed and welded in 1950, I think about how envious we 
would be of construction that was only 60 years old when it 
comes to the rail lines and the bridges that run up the 
Northeast corridor. We have got a bridge in Norwalk that you 
know a lot about that opens occasionally when we want it to 
open because it was built in the Grover Cleveland 
administration. And we are finally, thanks to your help, 
rebuilding that bridge.
    But I want to thank you for your recognition that the 
Northeastern rail corridor just cannot continue to sort of 
tread along at the current funding pace. And so, you have got a 
proposal here which is really important, setting aside a 
certain amount of money, not nearly enough, but an important 
signal of commitments in the future to do specific work on the 
Northeastern rail corridor.
    And I just wanted to allow you the chance to explain why 
you have proposed in this budget a specific matching grant for 
the Northeastern rail corridor, and how important you believe 
that is to trying to make sure that we do not have a disaster 
by virtue of one of these 118-year-old bridges failing up and 
down that corridor.
    Secretary Foxx. Well, thank you very much for the question. 
You know, by the way I had a great time in Connecticut. Look 
forward to going back.
    The Northeast corridor is a critical lifeline for many 
people. If you compare it to airline travel between, say, 
Washington, DC, and New York, three out of every four trips is 
taken by rail, not by air, so it is a very important corridor 
for us. It is also a corridor, as you point out, that in some 
cases is moving past its useful life in terms of the actual 
infrastructure. And one thing we cannot afford in a place where 
so many people count on rail as a lifeline is something to 
happen with the infrastructure that would result in a loss of 
life or a long-time stoppage in our ability to move people. It 
would create a traffic disaster in the northeast if we did not 
have the Northeast corridor.
    So our fiscal year 2016 budget request contains $550 
million specifically for the Northeast corridor. Much of it is 
specifically for state of good repair just to get us back in 
the business of trying to update what we have. I think long 
term we need to have a much bigger vision for the Northeast. I 
think the service should be faster. I think we should think in 
terms of making sure that we have a stepped up level of safety 
features on all aspects of our rail systems in the Northeast. 
This could be the subject of not only public funding, but it 
also could be the subject of public-private partnership as 
well.
    And so, we are working actually to develop a strategy 
around this along with the Northeast Corridor Commission. And I 
think that over time we are going to see some big things happen 
in the Northeast corridor. It is important that it happen 
because some of the infrastructure up there may have a life 
span of, say, 20 more years. And if we wait too long to start 
fixing it, we are going to find ourselves not having that great 
asset.
    Senator Murphy. Can I just ask you quickly about the 
commission specifically. This was an innovation of the last 
authorization. They have done really great work proposing a new 
allocation between States that control part of the line and 
Amtrak. There is also a proposal to provide some funding to 
allow them to transition to this new way in which you allocate 
capital resources between the State governments, the commuter 
rail lines, and Amtrak. They have done really great work, and I 
hope that you are going to continue to support them because 
part of this just getting all of the different commuter rail 
lines in all the different States to have the same strategy and 
the same plan, which up until the commission really was not 
happening, which hurt us.
    Secretary Foxx. Yes, and I would say that as we move from 
concept to execution, it is going to be very important for each 
of the States to buy into what it is we are trying to get done. 
And we look forward to working with you and others up here.
    Senator Murphy. Thank you. Thank you, Madam Chair.
    Senator Collins. Thank you very much. Mr. Secretary, it 
looks we have a couple more moments before the vote, so you do 
not get to leave us quite as quickly as you might have hoped. 
And what I would suggest is Senator Reed and I--there it goes--
Senator Reed and I each do one question. Did you make them call 
the vote when I said that?
    Secretary Foxx. That was me.

                     ELECTRONIC ON BOARD RECORDERS

    Senator Collins. Nice work. Let us each ask you one 
question before we are going to have to adjourn and submit the 
rest for the record. One important way to reduce highway 
fatalities is to require the installation of speed limiting 
devices on heavy trucks. This is something that the trucking 
industry itself has petitioned the Department for, and the 
Department has received literally thousands of comments in 
support of the petitioner's request.
    The FMCSA itself believes that this regulation would 
decrease the number of fatal crashes annually and would have 
minimal cost since these Governors are already installed on 
many trucks. Yet this regulation has lingered within the 
Department since, I believe, 2011, and has been delayed 21 
times. Could you tell us why the Department has failed to issue 
these regulations on speed limiters so many years after the 
initial petition despite widespread support and evidence of 
their effectiveness?
    Secretary Foxx. Well, first of all, I want to commend not 
only you, but many of the stakeholders that are pushing for 
this because we do believe that there is a net benefit to 
having a rule in place here. And, of course, some of it 
predates me, but I can tell you that from the agency 
perspective, there has been a lot of work done to quantify the 
safety benefits in terms of crashes, injuries, and fatalities 
that would be prevented.
    The Department also had to complete analysis of fatality 
reporting systems and general estimate systems data as well as 
research to provide sound estimates of safety benefits prior to 
submitting the rulemaking proposal.
    Having said all of that, I can tell you that there is a 
notice of proposed rulemaking that is working its way through 
the Department currently, and I am looking forward to getting 
that out as soon as possible, hopefully no later than the fall.
    Senator Collins. Thank you. Senator Reed.

                              E-CIGARETTES

    Senator Reed. Thank you, Madam Chair. Mr. Secretary, I 
think Senator Durbin would join me in this question. E-
cigarettes.
    Secretary Foxx. Yes.
    Senator Reed. You have said and have drafted regulations 
that they cannot be used aboard an aircraft by a passenger, but 
you are sort of stuck because you cannot bar them from baggage 
and cargo. You have recommended they not be included in cargo 
or baggage because you have to work with the International 
Civil Aviation Organization (ICAO), which is the international 
organization.
    So a series of questions. First, when will you finalize the 
rules specifically prohibiting the use of e-cigarettes by 
passengers on aircraft? Two, can you work with ICAO to get an 
international rule that will ban them from baggage? Three, if 
you cannot do that, will you come to us or will we--should we 
jump ahead and do legislation that authorizes you do to do it 
independently of ICAO?
    Secretary Foxx. Very important question, and we have 
brought our concerns to the attention of ICAO. We think that is 
the right venue to basically create a framework to deal with e-
cigarettes, and so we are working aggressively. And I would 
like to report back to you after having consulted with FAA on 
what the timeline is for actual action on that.
    Beyond that, the FAA did issue a safety alert in January 
2015 informing air carriers of the emerging risk, discouraging 
them from using the belly of the planes to store these e-
cigarettes, and encouraging that if they have to be transported 
by passengers, they be transported in the passenger section of 
the airplanes where an incident can be handled more readily.
    We plan to work through ICAO to try to get the world 
standard in place, and I would like to come back to you with 
the timeline on which we think that can happen, and then we can 
have further discussion about how you would like to proceed.
    [The information follows:]

    The Department expects that the final rule on use of electronic 
cigarettes on commercial flights operated by U.S. air carriers or 
foreign air carriers on flight to, within or from the United States 
will be published in the Federal Register later this year. Updates on 
the rulemaking schedule are posted each month at http://www.dot.gov/
regulations/report-on-significant-rulemakings.
    With respect to the status of any agreements with foreign air 
carriers, the Department has not received any agreements concerning e-
cigarettes and is not aware of any such
    agreements. Although the Department does not have ``agreements'' 
with foreign air carriers, the FAA's Safety Alert for Operators (SAFO) 
was made available to them, and the ICAO E-bulletin on e-cigarettes was 
distributed to all States requesting the national civil aviation 
authorities (CAAs) notify their operators. Since neither the SAFO nor 
the E-bulletin carry any regulatory force, any action the U.S. or 
foreign air carriers take would be voluntary unless required by their 
own CAAs.
    A U.S. Government Working Paper on the Agenda for the ICAO Working 
Group of the Whole includes a request for an addendum prohibiting 
placement of e-cigarettes in checked baggage and limiting their 
carriage to carry-on bags in the cabin at a minimum. If approved, the 
prohibition would be included in the current ICAO Technical 
Instructions within a few weeks and would not have to wait for 
publication in the next version in 2017.

    Senator Reed. Thank you, Mr. Secretary. Thank you, Madam 
Chair.
    Senator Collins. Thank you, Senator Reed, and I want to 
associate myself with your position on the e-cigarettes 
completely. I think we have time if either of you would like 
to--okay, great.
    This hearing will adjourn. Mr. Secretary, thank you very 
much for adjusting your schedule in light of the votes. And I 
do admire your ability to call the vote, and thus avoid the 
additional round of questions that we had for you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Collins. They will submitted for the record. And I 
do want to say that the record will remain open until next 
Friday for any additional questions or testimony that may be 
submitted.
    [The following questions were not asked at the hearing, but 
were submitted to the Department subsequent to the hearing:]
            Questions Submitted by Senator Susan M. Collins
                                  faa
    Question. I have been following the FAA's proposed policy change to 
its Part 77 review process by including OEI procedures calculations--
thus altering seventy-plus years of agency policy.
    The fiscal year 2105 Consolidated and Further Continuing 
Appropriations Act expressed concerns with this policy change and 
directed the FAA to carefully consider all comments submitted and to 
work with relevant stakeholders and urged the FAA to ``consider whether 
a cost benefit analysis should be required in the final policy on 
obstruction evaluation aeronautical studies.''
    My staff and I have heard that the FAA has begun to take steps to 
move forward with issuing its policy clarification without addressing 
the Appropriations Committees' concerns and the legitimate concerns 
from a bipartisan group of members of Congress and third party groups--
including many of the nation's largest real estate organizations.
    Can you provide this Committee with an explanation as to where the 
FAA's is in this process?
    If the FAA is moving toward adoption of the policy change, can you 
provide an indication as to when we can expect this policy 
clarification to be published in the Federal Register?
    Can you explain why the FAA feels a cost-benefit analyses is 
unnecessary when it comes to this policy change?
    Answer. On April 28, 2014, the FAA published for public comment a 
proposal to amend its policy concerning the impacts of certain 
structures during aeronautical studies conducted under Title 14 of the 
Code of Federal Regulations Part 77. Specifically, the FAA proposed to 
consider the impact of one engine out procedures when studying new 
structures or modifications to existing structures at certain airports 
that have a defined departure area for each runway end supporting 
commercial service operations. The FAA is proposing to factor these 
impacts into the aeronautical study process because the encroachment of 
airspace by structures surrounding certain airports appears to be 
significantly limiting options available to airlines to establish OEI 
procedures.
    The FAA conducted a public webinar on June 25, 2014 to explain the 
proposed policy change, and comments to the proposed change were 
received until July 28, 2014. The comments on the FAA proposal to 
voluntarily allow an airport to establish a single One Engine 
Inoperative protective surface off the departure end of their runways 
are still being reviewed and analyzed.
    The FAA has received numerous comments noting local economic 
development concerns and how the stakeholders would be involved. The 
FAA has not made a decision on whether to move forward with the 
proposed policy change. This decision will occur after all the comments 
are reviewed and analyzed.
                         fra--hiring inspectors
    Question. We have previously discussed the need for additional 
railroad inspectors at FRA and this Subcommittee has worked very hard 
in recent years to provide additional resources for the FRA to hire 
inspectors to help improve rail safety. Yet it is my understanding that 
the FRA has still, for some reason, been unable to fill many of these 
positions.
    Mr. Secretary, we cannot continue to provide funding to your 
department when you have not even filled positions that we funded in 
the past. Can you provide us with an update on where the FRA is in its 
hiring process, and clarify what is causing this delay?
    Answer. While the process of hiring is supposed to occur within the 
80-calendar-day timeframe that the Office of Personnel Management (OPM) 
defines, there is a great deal of planning that goes on before the 
hiring process even starts. Uncertainty, such as sequestration, and the 
Government shutdown, has in the past disrupted FRA's ability to 
maintain the stable pipeline of positions necessary to maintain 
staffing levels or fill newly created positions. In response, FRA has 
undertaken the development of a staffing plan, and is now aggressively 
hiring at a rate that accounts for estimated separations, which were 
not accounted for in previous years.
    While FRA has not seen major increases since the start of the year, 
this aggressive hiring plan is beginning to show results. Reducing the 
funding level at this point would erase all of the progress made to 
date. FRA is currently advertising 79 rail safety inspector positions. 
This is more than there are vacancies at the current time to get ahead 
of expected attrition. FRA is also requesting OPM's approval for Direct 
Hire authority for FRA railroad safety inspector positions.
                     hours of service--field study
    Question. In a December 2014 letter to Congress, you said that the 
Federal Motor Carrier Safety Administration (FMCSA)'s January 2014 
Hours of Service study revealed that drivers whose restarts included 
only one night of rest versus two or more nights scored ``significantly 
poorer'' on multiple kinds of safety assessments. However, what the 
study really said was that the two groups of drivers showed a 
difference of 1 millimeter in lane deviation and a difference of 6 
minutes in sleep duration.
    Mr. Secretary, do you really believe that a difference of 1 
millimeter in lane deviation and 6 minutes in sleep are significant 
differences that justify your changes to the Hours of Service 
regulations?
    Answer. The question refers to the result of a single secondary 
metric from the Field Study on the Efficacy of the New Restart 
Provisions for Hours of Service as required by the Moving Ahead for 
Progress in the 21st Century Act. The Field Study found that drivers 
who used a one night-time rest period during their 34-hour restart 
exhibited significantly more lapses of attention --especially at 
night--as compared to drivers with a restart break with two or more 
nighttime periods.
    The Field Study used a state-of-the-art fatigue assessment, the 
Psychomotor Vigilance Test (PVT), as the primary outcome measure of a 
driver's ability to react to visual stimuli, e.g., flashing lights on a 
smart phone, within a specific amount of time. Drivers taking a one-
night restart had 2.0 lapses per PVT, while on-duty drivers taking a 
two-or-more night restart had 1.7 lapses per PVT test--a difference of 
0.3 lapses, or a 15 percent reduction in lapses per PVT test.
    This finding is consistent with findings in prior fatigue studies. 
The study also found additional statistically significant differences 
between drivers using the two nighttime rest periods in other measures. 
These included differences in subjective sleep measures and lane 
deviation, as noted.
    As to 6 minutes of sleep, let me correct another myth--drivers who 
had one-night versus two-night restarts slept an average of 6.0 hours 
and 6.2 hours, respectively, on their duty days. On their off duty days 
they slept considerably more--8.8 and 8.9 hours. This means that 
drivers in the two-night restart group got nearly an extra 4 hours of 
sleep per week.
    The Department stands firmly behind the results of the 2014 Field 
Study as strong support for the two-overnight restriction on the 34-
hour restart.
              motor carrier minimum insurance requirements
    Question. The Department released a study last year regarding the 
minimum levels of financial responsibility, or insurance, required of 
passenger and property carrying motor vehicles. The Department is 
working on a rulemaking to increase these minimum levels of insurance 
despite the fact that less than 1 percent of all commercial motor 
vehicle crashes result in damages exceeding the current minimum levels 
of insurance. In fact, the only justification used by the Department 
appears to be that medical costs have risen over time. Despite the fact 
that Congress expressed its desire to not increase minimum insurance 
levels by dropping a rulemaking requirement during MAP-21 conference 
negotiations, your Department appears to be going full steam ahead.
    At a time when the FMCSA has continually failed to meet 
Congressional deadlines for important safety regulations, why has the 
Department initiated this rulemaking which Congress specifically did 
not want to do?
    Answer. Section 32104 of MAP-21 directed the Secretary of 
Transportation (DOT) to issue a report to Congress on the 
appropriateness of the current minimum financial responsibility 
requirements for motor carriers of property and passengers and the 
current bond and insurance requirements for freight forwarders and 
brokers. Additionally, the statute requires that the Secretary report 
on the adequacy of the financial responsibility limits every 4 years 
thereafter. FMCSA's April 2014 report fulfilled the statutory 
requirement for the initial report. Given the findings that certain 
crashes occur for which the current levels appear inadequate, the 
Agency tasked its Motor Carrier Safety Advisory Committee to provide 
recommendations on how best to address this challenge.
    FMCSA has made no decision concerning future regulatory action on 
motor carrier financial responsibility requirements. On November 28, 
2014, we issued an Advance Notice of Proposed Rulemaking (ANPRM) 
pertaining to financial responsibility. In that ANPRM, we sought 
information through a series of questions pertaining to a potential 
increase in the financial responsibility limits as well as other issues 
relating to personal injury and bodily injury damages that exceed the 
levels of minimum financial responsibility. We did not present any 
proposal for changes to the minimum insurance levels. Once the Agency 
has fully analyzed the information that we received through the ANPRM, 
we will decide on next steps and will make that information public.
    Congress did not direct the Agency to initiate a rulemaking 
concerning financial responsibility, but given the findings from the 
study, the Agency decided to seek public engagement regarding whether 
FMCSA should propose changes to the requirements.
dot's new ``assets'' energy transportation infrastructure grant program
    Question. Yesterday, the Administration announced a new initiative 
to modernize the Nation's energy infrastructure, including a new 
Department of Transportation competitive grant program known as 
``ASSETS,'' to be funded at more than $2 billion over 10 years in order 
to improve ``energy transportation infrastructure connectors.''
    I was surprised, and quite frankly disappointed, to learn about 
this proposal from media reports as opposed to hearing from the 
Department. I then learned that DOT leadership was just as surprised as 
I was by this announcement, so I do not blame you, Mr. Secretary, for 
the lack of communication with Congress. I am sure you would have 
called me had you known about this proposal, especially given the 
timeliness of today's budget hearing.
    Unfortunately, it is clear that the White House is not properly 
coordinating with DOT Leadership on its budget priorities. This is a 
major concern for this Subcommittee as we are working hard to target 
limited resources to important DOT programs.
    Mr. Secretary, can you please explain what exactly the ASSETS 
program is?
    Answer. The Actions to Support Shared Energy Transport Systems 
(ASSETS) program would focus on reducing congestion from additional 
movement of energy commodities to and from coastal ports and inland 
waterways, improving air quality, and enhancing public safety in and 
around ports and waterways and would help meet competiveness, 
environmental, and security goals.
    The DOT's TIGER grant program has successfully targeted investment 
in port connectors, but it is not specific to energy and is heavily 
oversubscribed. Only 10 percent of past TIGER grant awards have gone to 
port connectors.
    The Quadrennial Energy Review (QER) recommends that the ASSETS 
program be established and supported at DOT and operated in close 
cooperation with DOE. This program would be dedicated to improving 
energy transportation infrastructure connectors. The ASSETS program 
could provide significant benefits as a stand-alone measure while a 
new, more comprehensive infrastructure investment framework takes 
shape.
    The ASSETS program is not part of the fiscal year 2016 Budget 
request, nor is it proposed as part of the GROW AMERICA Act--the 
Administration's 6 year surface transportation reauthorization 
proposal--or accounted for as part of its pay-for. It will be subject 
to the President's Budget process in the future, including, for 
example, identification of revenue sources or other offsets. While the 
QER estimates that the scale of ASSETS investment could be on the order 
of $2.0 billion to $2.5 billion over the next 10 years, future 
discussions about funding would be subject to subsequent budget 
discussions. An investment of that order of magnitude would likely 
mobilize $4.0 billion to $5.0 billion in non-Federal investment, based 
on typical TIGER cost shares.
                                 ______
                                 
           Questions Submitted by Senator Barbara A. Mikulski
                                 wmata
Financial Management
    Question. Has WMATA made significant progress turning around its 
accounting and procurement practices?
    Answer. Yes, WMATA has made significant progress but more time is 
needed to finalize all corrective actions identified by the FTA 
Financial Management Oversight report (FMO).
    In the latest WMATA grants appropriations heading (in the 
Consolidated and Further Continuing Appropriations Act, 2015, Public 
Law 113-235) a new requirement was added which states:
    `` . . . That prior to approving such grants, the Secretary shall 
certify that [WMATA] is making significant progress in eliminating the 
material weaknesses, significant deficiencies, and minor control 
deficiencies identified in the most recent Financial Management 
Oversight Review.''
    In June of 2014, FTA issued a final FMO report to WMATA which 
listed numerous material weaknesses and significant deficiencies that 
WMATA needed to address. Since the issuance of that report, FTA has 
worked closely with WMATA in receiving and reviewing its submittals, 
tracking its adherence to due dates, and monitoring its overall 
progress with addressing the findings in the report.
    The final FMO report incorporated WMATA's proposed action plan for 
the recommendations in the report. Each recommendation required an 
associated submittal of information with specified due dates. Of the 38 
submittals noted in the report, WMATA has adequately provided 
information to address 33 recommendations. For the remaining submittals 
which required follow-up, WMATA has continually met the deadlines set 
by FTA. WMATA has also initiated monthly update meetings with FTA staff 
to discuss progress with the recommendations for which FTA granted an 
extension.
    Based on the above, FTA certified earlier this year that WMATA is 
making significant progress in eliminating the material weaknesses, 
significant deficiencies, and minor control deficiencies in the most 
recent Financial Management Oversight review--and proceeded with the 
award of grant funding.
    Question. What is the deadline for WMATA to complete the corrective 
action plan?
    Answer. The current deadline for WMATA's response to the final 
recommendations from the FMO Report is June 30, 2015. These 
recommendations are from Budget and Grant Management Control findings 
in the report. The recommendations deal with the reconciliation of 
costs charged to FTA grants, corresponding grant revisions from this 
reconciliation process, and the repayment of any funds discovered as 
being overdrawn from FTA grants.
    Question. What happens next?
    Answer. FTA continues to work closely with WMATA as it provides 
documentation to respond to the remaining recommendations. Ultimately, 
FTA will test and verify the successful implementation of WMATA's 
improved processes/procedures before closing any of the 
recommendations. This is standard practice and most likely will occur 
in fiscal year 2016 based on the progress made to date.
    Question. How long will FTA be actively monitoring WMATA's 
accounting and procurement practices?
    Answer. The exact timeframe will depend on WMATA implementing all 
recommendations required by the FMO report. As FTA noted in the 
issuance of the final FMO report last June, the closure of the findings 
will help ensure that the necessary financial controls and systems are 
in place and working properly. But FTA will not lift the drawdown 
restriction until FTA has sufficient time to confirm that WMATA is 
appropriately and effectively implementing the corrective actions to 
its financial systems and financial controls.
Draw Down of Federal Funding
    Question. My office has been advised by WMATA that its Federal 
grant reimbursement has increased and that all Federal grant 
applications through fiscal year 2014 have been awarded or in the 
process of being awarded.
    Is this true?
    Answer. Yes, WMATA increased its rate of requesting grant 
reimbursements over the last few months. FTA is keeping pace with this 
increased rate. In the last 6 weeks alone, FTA approved the drawdown of 
$87 million. This progress includes approval of WMATA internal labor 
charges. Additionally, as of April 2015, all fiscal year 2014 and prior 
grants have been obligated.
Cash Flow
    Question. Does WMATA have a cash flow problem?
    Or is this how other transit agencies operate on lines of credit 
and local dollars until Federal funding is reimbursed?
    Answer. WMATA recently informed FTA that loans are coming due in 
June 2015. WMATA advised FTA that there is a short term cash flow issue 
related to payment of the loans. FTA is working closely with WMATA to 
continue to process eligible reimbursement requests as quickly as 
possible, including WMATA's recent request for reimbursement of 
internal labor costs. Additionally, WMATA stated that it is working 
with its lenders to receive extensions to help mitigate the short-term 
cash flow issue.
    FTA expects grant funds to be reimbursements for actual 
expenditures. So FTA's grantees have to maintain a cash flow to receive 
Federal reimbursement after paying vendors, third parties, internal 
costs, etc. Some transit agencies do use lines of credit to accommodate 
this process.
Safety Management Inspection
    Question. Are there interim findings and recommendations that FTA 
can share with the Committee on this inspection?
    When will the Committee receive FTA Office of Safety's final report 
on the inspection?
    Answer. As a result of the L'Enfant Incident, the FTA is in the 
process of conducting multiple safety inspections relevant to WMATA: 1) 
a Safety Management Systems (SMS) Gap Analysis; 2) a Safety Management 
Inspection (SMI), and 3) a State Safety Oversight (SSO) Audit of the of 
the Tri-State Oversight(TOC) Committee.
    The SMS Gap Analysis will identify a baseline for WMATA to utilize 
while WMATA works towards establishing a Safety Management System. Any 
gaps identified in WMATA's current safety processes and practices will 
be identified as areas of weakness and/or risk in their Safety 
Management System. The SMS Gap Analysis onsite activities occurred the 
week of March 2nd. There are follow-up SMS activities scheduled in May 
and June.
    The Safety Management Inspection will address the operating and 
maintenance practices of WMATA's rail and bus systems. FTA conducted 
the on-site SMI from March 16 through April 3.
    The State Safety Oversight Audit of the Tri-State Oversight 
Committee will address TOC's effectiveness in conducting their direct 
safety oversight of WMATA, as dictated by MAP-21. The on-site 
activities of the SSO Audit were conducted from March 9 through April 
3.
    Following the conclusion of these activities, FTA will issue a Gap 
Analysis report, an SMI report with findings and recommendations, and 
an SSO Audit report with finding and recommendations.
    At this time, we do not have any interim findings to share. FTA 
expects to brief the Committee and relevant Members, and then issue the 
final reports in June 2015.
                      fta federal safety standards
    Question. What are the components of the new rulemaking for Federal 
safety standards?
    Answer. MAP-21 requires FTA to improve the safety of all public 
transportation systems that receive Federal transit funding, including 
the establishment of safety performance standards for rail vehicles in 
revenue service. There are multiple safety rulemakings underway and 
planned for the remainder of this year: 1) National Public 
Transportation Safety Program and related Safety Plan Guidance 2) State 
Safety Oversight Program 3) Public Transportation Agency Safety Plan 4) 
National Safety Certification Training Program, and 5) Bus Testing 
Standards.
    Question. When will the rulemaking be completed?
    Answer. All MAP-21 required safety-related rulemakings will be 
published for comment as NPRMs during calendar year 2015. Depending on 
the number of comments received, we expect the rules will become final 
in 2016 and effective in 2017.
    To date, the State Safety Oversight NPRM has been published and the 
comment period has closed. FTA staff has now begun work on the Final 
Rule. The Safety Certification Training Program Interim Provisions have 
been published and become effective on May 28, 2015. The remaining 
safety rulemakings (NPRMs) are expected to be published for comment 
later this year.
    Question. Does FTA have the financial resources it needs to support 
the new safety office and its groundbreaking mission?
    Answer. FTA has made significant progress setting up its new safety 
office. During fiscal year 2014, FTA hired the office's two most senior 
positions--Associate Administrator and Deputy Associate Administrator--
and now has approximately 32 safety office employees. With the $4.5 
million provided in the fiscal year 2015 Appropriations Act, FTA is 
working to hire additional safety employees during this fiscal year.
    The President's fiscal year 2016 Budget provides additional 
resources for both safety and other important positions within FTA and 
requests $114.4 million for administrative expenses--an increase of 
about $8 million over the fiscal year 2015 appropriation.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
    Question. Secretary Foxx, as you know from this Subcommittee's work 
last year, the safe transport of crude oil on rail lines is of great 
importance to me, my constituents, and my colleagues. In almost every 
meeting that I take back home, people tell me they are concerned about 
oil trains running through their towns. And for good reason. Crude oil 
shipments by rail have skyrocketed in my State. The number went from 
next to zero in 2011 to 17 million barrels of oil 2 years later to 
roughly 55 million barrels last year. This is occurring all over the 
country and raises real safety concerns.
    We have already seen far too many major rail accidents involving 
crude oil in North Dakota, West Virginia, and more. And by the 
Department of Transportation's (DOT) own projections, we can expect to 
see an average of 10 crude oil train derailments each year over the 
next 20 years.
    While I appreciate the Department's attention to this critical 
issue and the investments the fiscal year 2016 budget request makes, 
there is more work to be done. And frankly it needs to be done at a 
much quicker pace.
    Secretary Foxx, I am extremely disappointed that the Department 
missed the January 15th deadline for finalizing the rule on new tank 
car design standards--a deadline set by this Subcommittee.
    Answer. On Friday, May 8, 2015, the Department published a Final 
Rule entitled, ``Hazardous Materials: Enhanced Tank Car Standards and 
Operational Controls for High-Hazard Flammable Trains (HHFTs)'' as a 
change to the Hazardous Materials Regulation (HMR) [80 FR 26644]. In 
this final rule, new tank cars constructed after October 1, 2015 are 
required to meet the enhanced DOT Specification 117 design or 
performance standard. The figure below shows the enhancements.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In addition, PHMSA adopted a risk-based timeline for the retrofit 
of existing tank cars used in HHFTs. The timeline is provided in the 
following table:

      TIMELINE FOR CONTINUED USE OF DOT SPECIFICATION 111 (DOT-111)
                         TANKS FOR USE IN HHFTs
------------------------------------------------------------------------
              Tank Car Type/Service                  Retrofit Deadline
------------------------------------------------------------------------
Non Jacketed DOT-111 tank cars in Packing Group      (January 1, 2017*)
 (PG) I service..................................       January 1, 2018
Jacketed DOT-111 tank cars in PG I service.......         March 1, 2018
Non-Jacketed CPC-1232 tank cars in PG I service..         April 1, 2020
Non Jacketed DOT-111 tank cars in PG II service..           May 1, 2023
Jacketed DOT-111 tank cars in PG II service......           May 1, 2023
Non-Jacketed CPC-1232 tank cars in PG II service.          July 1, 2023
Jacketed CPC-1232 tank cars in PG I and PG II               May 1, 2025
 service** and all remaining tank cars carrying
 PG III materials in an HHFT (pressure relief
 valve and valve handles)........................
------------------------------------------------------------------------
* The January 1, 2017 date would trigger a retrofit reporting
  requirement, and tank car owners of affected cars would have to report
  to DOT the number of tank cars that they own that have been
  retrofitted, and the number that have not yet been retrofitted.
** We anticipate these will be spread out throughout the 120 months and
  the retrofits will take place during normal requalification and
  maintenance schedule, which will likely result in fleet being retrofit
  sooner.

    In the final rule, a new section 174.310(a)(3) was created to adopt 
new braking requirements for HHFTs. Specifically, this provision 
requires that a HHFT (as defined in Sec. 171.8 of the HMR) must be 
equipped and operated with a two-way end of train device or 
Distributive Power system. Heightened braking requirements are being 
adopted to cover trains that transport 70 or more tank cars of 
flammable liquids while operating over 30 mph. Unit trains that meet 
this threshold must be equipped with Electronically Controlled 
Pneumatic (ECP) brakes and must be operated in ECP brake mode based on 
a dual implementation schedule. The first requires that trains meeting 
the definition of an HHFUT comprised of at least one tank car loaded 
with a Packing Group I material be operated with an ECP braking system 
after January 1, 2021. The second requires that all other trains 
meeting the definition of an HHFT be operated with an ECP braking 
system after May 1, 2023.
    In addition to the tank car and braking improvements, the final 
rulemaking also introduced operational requirements to enhance safety. 
These operational enhancements include speed restrictions, routing 
requirements (including information sharing) and a testing and sampling 
program for unrefined petroleum products. These enhancements generally 
become effective sixty days after the May 8, 2015 publication date.
    The Department has taken multiple other actions to address this 
safety concern (see http://www.dot.gov/mission/safety/rail-chronology). 
The Department will work vigorously to implement the requirements of 
this rulemaking as quickly as possible and, if necessary, take other 
more immediate actions to address any safety issues.
    Question. While we work to bolster rail safety to prevent accidents 
involving crude oil shipments, we must also have the right policies in 
place to respond to emergencies when they do happen. This means 
training and equipment for State and local emergency responders and 
comprehensive oil spill response plans to protect the environment.
    Last year, the National Transportation Safety Board (NTSB) issued 
three recommendations to the Pipeline and Hazardous Materials Safety 
Administration (PHMSA) after finding that current regulations are 
outdated and do not account for the new reality of trains frequently 
transporting more than 100 tank cars. Today, we have robust 
requirements for oil spill response plans for pipelines and ships. We 
need them for railroads, too.
    Secretary Foxx, this Subcommittee directed PHMSA to update these 
outdated regulations to better protect our environment and prevent rail 
carriers and shippers from placing the response and cleanup burden on 
local and State agencies. What progress have you made on this 
requirement? When will we see a proposed rule to ensure trains carrying 
oil are treated no differently than pipelines or maritime vessels?
    Answer. On January 23, 2014 the National Transportation Safety 
Board issued PHMSA Safety Recommendation R-14-5 with regard to Oil 
Spill Response Planning. Specifically NTSB recommend PHMSA revise the 
spill response planning thresholds contained in Title 49 Code of 
Federal Regulations Part 130 to require comprehensive response plans to 
effectively provide for the carriers' ability to respond to worst-case 
discharges resulting from accidents involving unit trains or blocks of 
tank cars transporting oil and petroleum products.
    On August 1, 2014 PHMSA issued an Advance Notice of Proposed 
Rulemaking (ANPRM) entitled ``Oil Spill Response Plans for High-Hazard 
Flammable Trains'' (2137-AF08) in conjunction with a notice of proposed 
rulemaking (NPRM) entitled ``Enhanced Tank Car Standards and 
Operational Controls for High-Hazard Flammable Trains'' (2137-AE91). In 
this ANPRM, PHMSA, in consultation with the Federal Railroad 
Administration (FRA), sought comment on potential revisions to its 
regulations that would expand the applicability of comprehensive oil 
spill response plans (OSRPs) to high-hazard flammable trains (HHFTs) 
based on thresholds of crude oil that apply to an entire train consist. 
In response to this rulemaking PHMSA received over 250 comments 
representing over 70,000 signatories. PHMSA is actively working to 
analyze these comments and develop a Notice of Proposed Rulemaking in 
response to those comments and the NTSB recommendation.
    As noted on the Department's significant rulemaking report, a 
notice of proposed rulemaking is anticipated late this summer. This 
report can be viewed at the following website and is updated monthly 
http://www.dot.gov/regulations/report-on-significant-rulemakings.
    Question. There has been a consistent complaint about the 
Department's work on the proposed rules for both the new tank car 
standards and oil spill response plans--that it's taking too long.
    Secretary Foxx, are there additional resources you need, be it 
inspectors or analysts or something else, to move forward with measures 
that would further reduce the risks of oil train accidents and ensure 
communities have the resources they need to be prepared for 
emergencies?
    Anwer. The Department of Transportation is acutely aware of the 
pressing nature of this issue and has included a request for additional 
resources to tackle this problem in its 2016 budget request.
    In the fiscal year 2016 Congressional Justification, FRA made a 
specific request for 22.5 full-time equivalents (FTEs) to support the 
safe transportation of energy products, which was predominantly for 
inspectors. In addition, FRA requested funds for the automated track 
inspection program called ``ATIP,'' to increase the number of miles it 
can inspect to specifically further enhance FRA's focus on inspecting 
crude oil routes.
    In addition to traditional safety programs, the Department also 
believes that capital investment and research are also needed to tackle 
the problem. Therefore, the DOT budget included a request for funds for 
the Local Rail Facilities and safety grant program as a part of the 
Rail Service Improvement Program.
    In the fiscal year 2016 Congressional Justification, PHMSA made a 
request to hire 20.0 additional inspector and enforcement full-time 
equivalents (FTEs), who would be trained to do all hazmat inspections. 
A key issue related to this surge in crude oil transport is that other 
types of hazmat are not being inspected as regularly. Hence, while the 
additional staff would inspect crude oil transports, they would not be 
limited to those inspections. In addition, PHMSA requested funds for 
research and development, safety and testing equipment, training and 
outreach and for the safe transport of energy products.
    Question. The Acting Administrator of the Federal Railroad 
Administration recently said that DOT's efforts won't end when the new 
tank car standards go into effect and that everything is on the table 
when looking to improve the safe transport of crude oil. An ``all-of-
the-above'' approach if you will.
    Secretary Foxx, what additional measures is the Department pursuing 
above and beyond the safety advisories issued on April 17, which, while 
important, left much to be desired, especially when rail carriers like 
BNSF have already lowered their speeds in urban areas below 40 miles 
per hour?
    Answer. In addition to pursuing completion of the final rule, the 
Department has taken numerous other actions in the form of advisories, 
emergency orders, safety alerts, and outreach to improve safety. (See 
http://www.dot.gov/mission/safety/rail-chronology.) PHMSA and FRA are 
committed to continuing to improve safety through current and future 
safety initiatives (both regulatory and non-regulatory). PHMSA and FRA 
continue to work with the regulated community and general public to 
implement existing regulations and improve safety through regulatory 
action.\1\
---------------------------------------------------------------------------
    \1\ Table 7 of the final rule details PHMSA and FRA safety 
initiatives including rulemakings addressing risk reduction programs, 
track integrity, positive train control, train securement, crew size, 
and oil spill response planning.
---------------------------------------------------------------------------
    Further, DOT continues to work with the Department of Energy on 
further research projects, in addition to the literature review of 
existing studies related to crude oil that Sandia National Laboratories 
released in March. These further research projects include preparation 
of a Sampling, Analysis and Experiment Plan to address gaps in current 
knowledge of crude oil properties and to correlate measured properties 
with combustion potential. Finally, PHMSA and FRA field personnel 
continue outreach in the field to ensure compliance with regulations. 
PHMSA field personnel continue to conduct sampling and testing of crude 
oil across the Nation.
    Question. Secretary Foxx, as you know from past conversations the 
TIGER program is of great importance to me. I thank you for joining me 
in Seattle in October to announce a $20 million TIGER award for the 
Port of Seattle to modernize Terminal 46 and support important 
rehabilitation work, create jobs, and maintain the competitiveness of 
the Port in a global maritime economy. This project illustrates the 
importance of the TIGER program--a program I created and first funded 
as part of the Recovery Act.
    Since 2009, TIGER has awarded $4.1 billion to support more than 340 
innovative, multimodal projects in every State. But demand for these 
funds is intense. With the seventh round of TIGER underway, which was 
made possible by the fiscal year 2015 Omnibus bill and this 
Subcommittee, I fully expect you to receive hundreds of well qualified 
projects.
    Recognizing that applications always exceed the amount of funding 
available, I appreciate the President's proposal to more than double 
the size of TIGER and support growth and investment in our 
infrastructure as part of GROW AMERICA.
    Secretary Foxx, I look forward to working closely with you as round 
seven of TIGER gets underway and ask for your continued commitment to 
work with me to ensure there are future rounds of TIGER next year and 
beyond.
    Answer. Since the TIGER program's inception, and with Congress' 
continued support, DOT has invested nearly $4.1 billion in 342 road, 
rail, transit, and port infrastructure projects in all 50 States, the 
District of Columbia, and the Commonwealth of Puerto Rico--and we look 
forward to making even more investments with the 7th round of TIGER.
    These projects are contributing to our efforts to achieve national 
goals of improving safety, state of good repair, economic 
competitiveness, quality of life and improving the human and natural 
environment. For example:
  --In New York City, DOT awarded a $25 million grant for the Vision 
        Zero: Saving Lives and Providing Opportunity Project (a $52.8 
        million project) that will fund a 3-part safety improvement 
        program in New York City, comprised of safe pedestrian access 
        to schools and transit, and safe bicycle access to jobs via 
        completion of trail systems connecting distressed communities 
        with employment centers.
  --In Claiborne County, Mississippi, the Department awarded a $17.8 
        million grant for the Three-County Roadway Improvements Program 
        (an $18.7 million project) that will radically improve motor 
        vehicle transportation reliability and safety in an 
        economically-disadvantaged, rural region by rehabilitating 
        41.16 miles of strategic county roads and replacing 18 bridges.
    Over the six previous rounds of TIGER grant program, DOT has 
received more than 6,100 applications requesting over $124 billion; 
however, DOT has only been able to provide funding to roughly 5.6 
percent of the projects submitted.
    That's why the Obama Administration has put forward the GROW 
AMERICA Act--a 6-year, $478 billion proposal that will dedicate more 
funding to these kinds of investments.
    The Administration's proposal includes $1.25 billion over 6 years 
for the TIGER grant program to continue to support the types of 
national, regional, and local infrastructure projects that help build 
and maintain a robust, more efficient, competitive, cost-effective and 
environmentally sustainable transportation system for the American 
taxpayer.
    Question. Investments in public transit in urban and rural areas 
alike continue to be critical to our Nation's transportation system. 
From light rail to bus to commuter rail to ferries, all of these 
transit modes provide greater transportation options for regional 
commuter and transit users, decrease congestion on our roads, and 
reduce air pollution.
    That is why year after year I have supported strong funding for the 
Federal Transit Administration's (FTA) Capital Investment Program. This 
critical program provides financial assistance for construction of new 
transit systems as well as extensions and improvements to existing 
systems. And over the years we have seen great partnerships develop 
between FTA and transit organizations in Washington State--from Sound 
Transit and their successful light rail to C-TRAN and their bus rapid 
transit routes. I know that others in Washington are discussing new 
projects with FTA, like the Spokane Transit Authority and their Central 
City Line, so demand for greater connectivity and transit 
transportation options only continues to grow.
    Secretary Foxx, I appreciate your continued support of News Starts 
and Small Starts projects through the Capital Investment Program. As 
Congress moves toward reauthorization of MAP-21, I ask that you stand 
with me and urge for strong support of transit programs as they are a 
critical part of the solution to our Nation's transportation and 
congestion problems.
    Answer. Senator Murray I stand with you 100 percent in urging 
Congress to provide adequate funding to build transit system capacity 
to meet growing ridership demand. The Capital Investment Grant program 
provides funding for new and expanded heavy rail, commuter rail, light 
rail, streetcars, and bus rapid transit projects around the country 
that help improve mobility, transform communities, and spur economic 
development.
    There has been a remarkable increase in demand for Capital 
Investment Grant program funding. The number of transit projects 
pursuing this funding has grown 90 percent since passage of MAP-21. 
However, annual appropriations for the program have not kept pace. The 
program funding level has hovered at roughly $2 billion annually since 
fiscal year 2010.
    The Administration's fiscal year 2016 budget proposed $3.25 billion 
for the Capital Investment Grant program in recognition of the need for 
these key transit infrastructure projects. And the GROW AMERICA 
reauthorization proposal recommends growing the annual funding level 
for Capital Investment Grants by roughly 2 percent per year thereafter 
bringing the total to over $20.5 billion over 6-years.

                          SUBCOMMITTEE RECESS

    Senator Collins. Thank you for being here today. This 
hearing is now adjourned.
    [Whereupon, at 10:59 a.m., Wednesday, April 22, the 
subcommittee was recessed, to reconvene at a date and time 
subject to the call of the Chair.]
</pre></body></html>
